        ADMINISTRATION AND MANAGEMENT OF THE
               CIVIL AIR PATROL—PHASE II


Report No. D-2000-193                  September 27, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CAMP                  Civil Air Patrol Aircraft Modernization Program
CAP                   Civil Air Patrol
CAP-USAF              Civil Air Patrol-U.S. Air Force
DoDGARs               DoD Grant and Agreement Regulations
FAA                   Federal Aviation Administration
NEC                   National Executive Committee
OMB                   Office of Management and Budget
                      Office of the Inspector General, DoD
Report No. D-2000-193                                               September 27, 2000
  (Project No. D1999LA-0025.01)
  (Formerly Project No. 9LA-5020.01)

                    Administration and Management of the
                          Civil Air Patrol-Phase II

                                 Executive Summary

Introduction. The Civil Air Patrol (CAP) is a federally chartered, private,
not-for-profit organization devoted principally to aerospace education, cadet training,
and emergency services. The CAP is the official auxiliary of the U.S. Air Force. The
CAP National Board is chaired by the National Commander and includes the National
Vice Commander, National Chief of Staff, National Controller, National Finance
Officer, National Legal Officer, 8 region commanders, 52 wing commanders, and the
Senior Air Force Advisor. The Civil Air Patrol-U.S. Air Force (CAP-USAF) is the
U.S. Air Force organization responsible for providing advice, liaison, and oversight to
CAP.

Objectives. The overall objective of the audit was to evaluate the administration and
management of the CAP program, as directed by the Conference Report on the
National Defense Authorization Act for FY 2000. This report is the second of
two reports on the administration and management of the CAP program. The first
report covered aircraft and vehicle requirements, management authority, property
accountability, and reimbursables. This report covers authority over safety, pilot
certification, and aircraft maintenance; the aircraft replacement program, aircraft
distribution, and Hull Self-Insurance; the flying program; and financial management.

Results. The CAP corporate headquarters did not have management controls over
assets assigned to the volunteer force. Nearly all of the 86 aircraft maintenance records
reviewed and 317 of the 595 pilot records reviewed had deficiencies. As a result, the
safety of flight operations could be compromised (finding A).

CAP did not effectively administer the aircraft replacement program. As a result, CAP
could not ensure effective and efficient accountability, distribution, or replacement of
aircraft. Also, the use of the CAP Aircraft Modernization Program account for repair
and replacement of aircraft had an appearance of impropriety (finding B).

CAP did not have supporting documentation to validate the 115,000 and 109,000 flying
hours reported for FY 1998 and FY 1999, respectively. As a result, claims for
reimbursement for counterdrug, search and rescue, liaison proficiency flying and other
missions could be claimed or reimbursed more than once (finding C).

CAP did not have current accounting policies and procedures, did not process purchase
requests properly, and had an internal audit staff that performed duties and functions
that conflicted with internal auditing standards. In addition, the internal auditor had
only performed two audits of the CAP Headquarters financial operations in 3 years. As
a result, CAP may not be in compliance with the Office of Management and Budget
Circulars and DoD Grant and Agreement Regulations (finding D).
Summary of Recommendations. We recommend that the CAP National Board and
the National Commander delegate authority over the volunteer force to the Executive
Director, CAP, for management decisions associated with safety issues; create a review
board to eliminate the CAP chain-of-command issues; and conduct a study of its fleet-
usage data. We recommend CAP obtain an agreement with CAP-USAF to have liaison
offices monitor safety compliance and report to CAP through CAP-USAF the wings
and squadrons that habitually ignore recommendations for corrective actions. We also
recommend CAP initiate procedures to report the actual number and type of aircraft
assigned and require units to record and monitor flying hours for each aircraft; require
the accounting department to update accounting policies and procedures prior to
FY 2001, and ensure that the adequate controls are in place. We recommend that
CAP-USAF assign to liaison offices the responsibility to maintain records and files of
source documents for actual flying hours for each aircraft and ensure that the
CAP-USAF Financial Division approves claims for reimbursement only if both liaison
office and responsible officials of CAP have approved the document.

Management Actions. Because of the number of serious CAP regulation compliance
deficiencies in aircraft maintenance and documentation noted during the audit, the
National Commander, CAP, ordered a one-time mandatory inspection of all CAP
aircraft and maintenance records. During our review, wing commanders took
immediate corrective action and suspended the pilots whose records were found to be
deficient. The Executive Director, CAP, took immediate corrective action to enforce
procedures for processing CAP Form 4 transactions and paying for purchase requests
of products or services that had circumvented proper accounting and authorizing
channels.

Management Comments. The Air Force’s CAP Management Improvement Team,
commenting for the Commander, CAP-USAF, concurred with the findings and
generally concurred with the recommendations in the report. The National
Commander, CAP, partially concurred with the report and recommendations. The
National Commander nonconcurred that authority should be delegated to the Executive
Director for management decisions associated with safety, volunteer membership, or
activities conducted by volunteer members. The National Commander proposed that
the CAP volunteer leadership should retain authority over the volunteer members, and
the Executive Director should have final authority over funding and assets. The
National Commander nonconcurred with the recommendations to create wing
databases, consolidate pilot records and personnel files, and revise two CAP
regulations. The National Commander proposed that, rather than individual wing
databases, a national database that shows currency of active pilots and contains entries
on various qualifications, such as pilot’s most recent medical certificate, should be
created. The National Commander also proposed that the database would then negate
the need to revise the regulations concerning the revocation of specialty mission cards.
The National Commander nonconcurred with recommendations concerning the Hull
Self-Insurance account and the CAP Aircraft Modernization Program and proposed
several actions that could satisfy the intent of the recommendations. The National
Commander proposed the criteria for each fund be reviewed and redefined to specify
the items payable from the insurance account and the modernization program. The
National Commander nonconcurred with requiring CAP Operations Division personnel
to validate and approve hours claimed for reimbursement before payment. He stated
that Air Force oversight personnel would best perform validation and that the Executive
Director is seeking an agreement from CAP-USAF to assume the responsibility. A
discussion of management comments is in the Finding section of the report, and the
complete text is in the Management Comments section.

                                           ii
Audit Response. Although the CAP Management Improvement Team nonconcurred
with one recommendation and nonconcurred in part with another recommendation, we
consider their comments to be responsive. No further comments are required.

The National Commander’s comments were partially responsive. We maintain that to
make management decisions associated with management control issues relating to
funds and assets, prohibiting CAP flying privileges, suspending flying activities of
wings that continuously fail to report as required, safety, and exercise control over
assets, the Executive Director must have some authority over safety issues and activities
conducted by the volunteer members. If the National Commander would delegate some
authority to the Executive Director for management decisions associated with
management control issues, safety, and activities conducted by the volunteer members,
with conditions similar to those expressed in responses to the draft report, the intent of
the recommendations can be satisfied. The National Commander proposed alternate
actions with regard to creating individual wing databases, consolidating pilot records
and personnel files, and revising two CAP regulations that would satisfy the intent of
the recommendations. However, the comments did not provide time frames for
completion of the proposed actions. The National Commander also proposed to review
and redefine criteria for use of the Hull Self-Insurance account and the CAP Aircraft
Modernization Program and specify the types of items payable from each fund that
could correct the cited conditions and root causes. However, without an opportunity to
review the criteria, we cannot say absolutely that the proposed action would satisfy the
overall intent of the recommendations. In addition, the CAP regulation dealing with
CAP aircraft maintenance management still requires revision to permit the action as
well as redefining the criteria and specifying the types of expenses that are payable
from the Hull Self-Insurance fund. Finally, the National Commander proposed that the
Air Force oversight personnel validate and approve hours claimed for reimbursement
and, as such, indicated that the Executive Director is seeking an agreement from
CAP-USAF to assume the responsibility. However, the National Commander did not
specify the time frame for completion of the action or an alternative if CAP-USAF does
not agree to assume the responsibility.

We request that the National Commander, CAP, provide additional comments in
response to the final report by November 27, 2000.




                                           iii
Table of Contents

Executive Summary                                       i


Introduction
     Background                                         1
     Objectives                                         3


Findings
     A.    Authority                                    5
     B.    Aircraft Replacement Program                25
     C.    Flying Program                              38
     D.    Financial Management                        45


Appendixes
     A. Audit Process
         Scope                                         51
         Methodology                                   52
         Management Control Program Review             53
     B. Prior Coverage                                 54
     C. Specialty Mission Hours Reported to Congress   55
     D. Flying Hours (by Wing and Region)              58
     E. Report Distribution                            61


Management Comments
     Department of the Air Force                       63
     Civil Air Patrol                                  65
Background
    The Civil Air Patrol (CAP) was founded December 1, 1941. The principal
    purpose of CAP was to allow private pilots to use their aircraft and flying skills
    in civil defense efforts. In 1943, CAP was transferred to the War Department
    and came under the control and direction of the Army Air Forces. On July 1,
    1946, Congress enacted Public Law 476, establishing CAP as a federally
    chartered private, not-for-profit organization devoted to humanitarian activities.
    In May 1948, Public Law 557 made the organization the official auxiliary of the
    U.S. Air Force and authorized the Secretary of the Air Force to assign military
    and civilian personnel to liaison offices at all levels of the organization.

    CAP Organization. The CAP corporate organization consists of a national
    headquarters, 8 geographic regions, 52 wings (1 for each state, the District of
    Columbia, and the Commonwealth of Puerto Rico), and more than 1,700 units.
    In 1999, CAP membership increased to more than 61,000 members, of whom
    35,000 are senior members and 26,000 are cadets. The CAP Corporation owns
    and operates a fleet of about 530 corporate aircraft, primarily Cessna 172s and
    182s, and 950 ground vehicles in support of organization programs.

    Mission and Functions. CAP performs three primary functions: aerospace
    education, cadet training, and emergency services. The aerospace education
    programs provide its membership, and the educational community, information
    about aviation and space activities. In 1999, CAP supported more than
    100 workshops and universities across the nation, reaching more than
    3,000 educators. More than 300,000 students benefited from the CAP
    Aerospace Education Program. The cadet training program develops and
    motivates the youth of our Nation to become leaders and responsible citizens
    through an interest in aerospace. The CAP cadet training program is open to
    young people between 12 and 20 years old. The emergency services program
    includes air search and rescue, disaster relief, and civil defense. CAP members
    fly more than 85 percent of the Federal inland search and rescue missions
    directed by the Air Force Rescue and Coordination Center, Langley Air Force
    Base, Virginia. In 1999, CAP aircrews flew over 60,000 flying hours in
    support of federally funded programs, including search and rescue, disaster
    relief, training, and counter-drug operations, and were credited with saving
    84 lives.

    CAP operates in accordance with its constitution and bylaws, as well as with
    regulations and other directives approved by the National Board and National
    Executive Committee (NEC) that are issued by the Executive Director. The
    highest governing body of CAP is its National Board, chaired by the National
    Commander, a member elected to the post by the CAP membership. Other
    members of the Board include the Senior Air Force Advisor, the 8 region
    commanders, the 52 wing commanders, and the elected National Vice
    Commander, National Chief of Staff, National Controller, National Finance
    Officer, and National Legal Officer. The Senior Air Force Advisor is an active



                                        1
duty Air Force colonel who is responsible for all active duty and DoD civilian
employees assigned to the Civil Air Patrol-U.S. Air Force (CAP-USAF), which
provides advice, liaison, and oversight to CAP. The Senior Air Force Advisor
is also the Commander, CAP-USAF.

Relationship between CAP and CAP-USAF. The CAP corporate
headquarters and the CAP-USAF headquarters are collocated on Maxwell Air
Force Base, Alabama. The relationship between the Air Force and CAP is
outlined in a memorandum of understanding executed by the Commander,
CAP-USAF, and the National Commander, CAP, and approved by the Deputy
Assistant Secretary of the Air Force (Reserve Affairs) in 1991. The
memorandum defines the duties and responsibilities of CAP as a volunteer
auxiliary of the Air Force and defines and establishes responsibilities and
respective support between the Air Force and CAP.

CAP Funding. In May 1948, Public Law 557, “CAP Supply Bill,” made CAP
the official auxiliary of the Air Force and authorized the Secretary of the
Air Force to assign military and civilian personnel to liaison offices at all levels
of CAP. Congress also authorized the Secretary of the Air Force to provide
CAP with equipment, supplies, services, and facilities, as well as funds for
specified purposes. The CAP Supply Bill was amended by Congress to permit
the Secretary of the Air Force to support CAP as described below.

       •   Amendments to section 9441, title 10, United States Code
           (10 U.S.C. 9441), “CAP Supply Bill,” in 1984 authorized the
           provision of appropriated funding to CAP. The Secretary of the
           Air Force is authorized to reimburse CAP for major items of
           equipment, such as aircraft and motor vehicles.

       •   Amendments to 10 U.S.C. 9441 in 1994 authorized the Secretary of
           the Air Force to provide funds for CAP headquarters, including
           payment of staff compensation and benefits, administrative expenses,
           travel, per diem and allowances, rent and utilities, and other
           operational expenses.

In FY 2000, CAP received $28.3 million in appropriations from the Air Force
for specific CAP operations, and the Air Force budget submission for CAP in
FY 2001 was $16.5 million.

As authorized by the CAP Supply Bill, active duty Air Force personnel were
assigned or detailed to CAP-USAF and served at CAP headquarters and at wing
and region liaison offices.

Air Force Oversight. In 1995, an Air Force reorganization reduced the
number of Air Force personnel assigned to CAP-USAF. The Air Force
converted 175 of 250 active duty positions to CAP employee positions,
transferring corresponding appropriated funds to CAP for personnel to direct
CAP activities previously directed by CAP-USAF personnel. The



                                     2
     reorganization changed the Air Force role from one of functioning as the
     national headquarters to one of providing advice, liaison, and oversight to CAP
     activities and operations. To accomplish its role, the Air Force has a
     CAP-USAF headquarters to coordinate activities of assigned Air Force
     personnel. CAP-USAF has about 75 positions, with about one-third at
     CAP-USAF headquarters and two-thirds at liaison offices in the 8 regions. The
     CAP-USAF headquarters staff is similar to other commands, in that it comprises
     a chaplain, an information management office, an inspector general, a judge
     advocate, a personnel office, a public affairs office, and a safety office. Other
     significant elements of the CAP-USAF headquarters are as follows.

             •   The Financial Management Directorate provides oversight of CAP
                 financial operations.

             •   The Logistics Directorate manages aircraft procurement and
                 maintenance, vehicle procurement and maintenance, and CAP
                 supply. Logistics personnel are dual hatted, performing duties
                 representing both CAP-USAF and CAP. The formal chain of
                 command is through CAP-USAF while a large percentage of duties
                 performed are in support of CAP policies and procedures as directed
                 by the CAP Executive Director.

             •   The Operations Directorate is responsible for flight operations and
                 training of CAP-USAF pilots. Operations personnel are also
                 responsible for providing advice, liaison, and oversight of CAP flight
                 operations and training, including search and rescue, disaster relief,
                 and counter-drug operations.

             •   The Information Management Directorate provides oversight of CAP
                 Education and Training Programs.

     The Air Force set guidelines for support and use of CAP in Air Force Policy
     Directive 36-50, “Civil Air Patrol,” August 23, 1993. The directive establishes
     the Secretary of the Air Force, through the Office of the Assistant Secretary of
     the Air Force (Manpower, Reserve Affairs, Installations and Environment), as
     responsible for policy, resource advocacy, and oversight of Air Force support
     for CAP. Air Staff headquarters, through the Air Education and Training
     Command, the Air University, and CAP-USAF, is responsible for establishing
     CAP support programs, to include identifying requirements and executing the
     programs, in accordance with Air Force Policy Directive 36-50.


Objectives
     The overall objective of the audit was to evaluate the administration and
     management of the CAP program, as directed by the Conference Report on the
     National Defense Authorization Act for FY 2000. This report is the second of
     two reports on the administration and management of the CAP program. The



                                          3
first report covered aircraft and vehicle requirements, management authority,
property accountability, and reimbursables. This report covers authority over
safety, pilot certification, aircraft maintenance, the aircraft replacement
program, aircraft distribution, Hull Self-Insurance, flying program, and
financial management. See Appendix A for a discussion of the audit’s scope
and methodology and Appendix B for prior coverage.




                                   4
           A. Authority
           CAP corporate headquarters did not have management controls for assets
           assigned to the volunteer force. The condition occurred because the
           Executive Director did not have authority over safety issues. As a
           result, safety issues, including aircraft maintenance and pilot
           certifications, were not adequately addressed. Eighty-four of the
           86 aircraft had problems related to aircraft inspection and maintenance
           requirements. Of the 595 pilot records reviewed, 317 were deficient.
           Without authority over safety issues, assets (both equipment and
           personnel) could be subjected to undue risks and the Executive Director
           would not be able to properly exercise accountability and control of the
           assets.


History
    In our first report, “Administration and Management of the Civil Air Patrol,”
    Inspector General, DoD, Report No. D-2000-075, February 15, 2000, the
    National Commander concurred in part with our recommendation to delegate to
    the Executive Director, CAP, management decisions associated with safety and
    management control. The National Commander stated that authority should be
    delegated to the Executive Director for management decisions associated with
    management control issues relating to funds and assets only. The National
    Commander did not concur with delegating authority for management decisions
    associated with safety issues. Because our review of the CAP safety posture
    was continuing at the time of the report, we determined that further
    consideration of the recommendation would be deferred until additional work
    was completed. The work covered September 1999 through May 2000 and
    resulted in visits to 11 wings (Alabama, California, Colorado, Florida, Georgia,
    Idaho, Maine, Missouri, New York, Ohio, and Oregon) and 64 flying units.
    Our review included the CAP safety program, pilot certifications, aircraft
    maintenance, and accidents and incidents reported from FY 1997 through the
    third quarter, FY 2000.


CAP Safety Program Guidance
    CAP Regulation 60-2 (E), “Safety and Regulatory Compliance – No-Notice
    Inspection,” February 15, 1997, requires wing commanders to conduct a
    no-notice inspection of all CAP flying units in the wing during each 12-month
    period to improve safety and regulatory compliance.

    CAP Regulation 62-1 (E), “Civil Air Patrol Safety Responsibilities and
    Procedures,” July 1, 1992, establishes the requirements for an effective safety
    program within CAP. The regulation sets guidance and procedures for safety
    officers to conduct monthly safety meetings and safety surveys. Although


                                        5
    commanders are responsible for safety in their areas of jurisdiction, region
    commanders (also members of the National Executive Committee) are ultimately
    responsible for CAP safety. The adequacy of each unit’s safety program is
    evaluated in accordance with CAP Regulation 123-3, “Inspection - Civil Air
    Patrol Assessment Program.”

    CAP Regulation 123-3(E), “Inspection - Civil Air Patrol Assessment Program,”
    March 1, 1998, provides an explanation of procedures used in the conduct of
    CAP unit Quality Air Force Assessments, Staff Assistance Visits, Wing Internal
    Inspections, and Self-Assessment Programs.


CAP Safety Program
    CAP corporate headquarters did not have management controls for assets
    assigned to the volunteer force. The condition occurred because the Executive
    Director did not have authority over safety issues.

    CAP wings and squadrons did not meet criteria in the CAP safety program.
    The squadrons and wings were not conducting safety meetings or performing
    safety surveys and no-notice inspections as often as required.

    Safety Meetings. None of the 66 flying units we visited was meeting the safety
    meeting requirements of CAP Regulation 62-1(E). We did not find evidence
    that monthly safety meetings were always held. Units did not maintain rosters
    of individuals who attended the safety briefings or records indicating if the
    safety material was made available through bulletin boards or reading files and
    summaries were presented for those who could not attend. We also did not find
    evidence units were requiring personnel not present at the meetings to read and
    initial the summaries of the meetings.

    Safety Surveys. Seven wings and 36 flying squadrons did not perform the
    safety surveys required by CAP Regulation 62-1(E). The regulation also
    requires unit commanders to ensure that an internal safety survey is conducted
    annually. Although 7 wings and 18 squadrons performed the survey, the results
    were not adequate to ensure safe flying operations because safety survey
    questionnaires did not include a review of pilot certifications and records, and
    maintenance questionnaires did not include the maintenance of airworthy
    directives and service bulletins for each assigned aircraft.

    No-Notice Inspections. The wings we visited indicated the no-notice
    inspections were performed but could not document the inspections. A
    no-notice inspection is a complete inspection of the flying unit. The inspection
    covers the flying safety program and includes classroom training and
    attendance, review of flying and pilot records, flight release procedures,
    maintenance and condition of assigned aircraft, and an overall evaluation of
    safety and compliance with CAP flying, safety, and other operational
    regulations.



                                        6
Liaison Offices
     Deficiencies or discrepancies found by liaison offices during safety inspections
     are often not fixed because wings and units do not consistently comply with
     recommendations for corrective action. The decision to make or ignore
     corrective actions remains with the volunteer force.

     Liaison offices provide advice and assistance to the volunteer force for their
     flying program. The liaison region commanders are active members of the
     Air Force who report directly to the CAP-USAF Commander. The wing liaison
     officers and liaison noncommissioned officers are employees of CAP and
     provide advice, assistance, and oversight on the CAP program in his or her
     assignment to CAP and CAP-USAF. As a corporate employee, the wing liaison
     officer reports directly to the Executive Director, who works closely with the
     Commander, CAP-USAF, to ensure CAP volunteers meet CAP and Air Force
     standards in performance of duties.

     Wing liaison personnel keep headquarters staff informed about operating
     problems in the field. One method of regular reporting on the activities and
     items of interest is through the Liaison Region Commander’s Quarterly Report
     to CAP-USAF. Liaison offices provide monthly inputs to the appropriate
     liaison region commanders for inclusion in the quarterly report.

     Responsibilities of Liaison Offices. CAP does not have a directive defining the
     responsibilities of the liaison offices. A list of things the liaison personnel
     should do, should not do, or may do are defined in the Liaison Staff Handbook,
     which was published under the reorganized liaison structure enacted in
     January 1995.

     The Liaison Staff Handbook is intended to be used as a reference document for
     field activities but does not apply to CAP-USAF liaison region personnel. It
     includes duties such as advising and assisting the volunteer force in their flying
     program, preparing scenarios for CAP operations evaluations, and monitoring
     safety and training for the emergency services program. In day-to-day business,
     the wing liaison offices make recommendations on observed deficiencies but
     cannot enforce the actions recommended. Memorandums to wing commanders
     on observations and recommendations could be ignored. Similarly, even if the
     liaison offices submit observed deficiencies through the Commander,
     CAP-USAF, and the Executive Director, CAP, corrective action could not be
     assured because only the CAP Region Commander can currently order the
     recommended corrective action. The CAP command structure also requires
     NEC approval before the CAP corporate headquarters can resolve problems
     pertaining to volunteer members.

     Inspections. Deficiencies or discrepancies found during safety inspections are
     often not fixed because wings and units do not consistently comply with
     recommendations for corrective action. The decision to make or ignore
     corrective actions remains with the volunteer force. Although inspection reports



                                         7
    are sent to CAP Headquarters, the Executive Director could not enforce
    corrective actions because the Executive Director had no authority to enforce
    compliance by the volunteer force.

           Unit Self-Assessments. We did not find evidence that commanders
    were performing unit self-assessments. A unit self-assessment is an inspection
    conducted by commanders at all levels using assessment guides developed by
    CAP-USAF to evaluate their own directorates or programs. Either the CAP
    wings or regions establish wing internal inspections to evaluate management and
    mission capability of subordinate units.

            Reports. The volunteer force can either ignore or take the corrective
    actions recommended by the inspections. For example, the wing commanders
    furnish a copy of the inspection report to the unit commanders for comment and
    reply within 30 days. If the unit’s subsequent no-notice inspection produced a
    repeat discrepancy, the wing commander is required to reassign corporate
    aircraft and prohibit CAP flying privileges in corporate and member-owned
    aircraft. However, the National Commander, on recommendation of the region
    commander, may grant a waiver or delay for loss of aircraft. Further, the wing
    commander may also recommend the return of a corporate aircraft to flight
    status or a restoration of flying privileges for the unit, subject to approval of the
    region commander.

    Reasons. The force is made up of volunteers who have paying jobs elsewhere.
    As volunteers, the force does not dedicate its full time to correcting deficiencies
    found by the liaison officer. In addition, the volunteer force relies on assistance
    from the Military Reserves to make the corrections. Therefore, control over
    assets and personnel is not as effective and efficient as it should be. Without
    proper authority over safety issues, the Executive Director is not able to
    properly exercise accountability and management control of assets. For
    example, our review of pilot records and maintenance of assigned aircraft
    reveals that both assets and personnel are exposed to undue risks.


Aircraft Maintenance
    CAP was not adequately managing the CAP aircraft maintenance program
    because Federal Aviation Administration (FAA) and CAP regulations were not
    complied with fully. Eighty-four of the 86 aircraft had problems related to
    aircraft inspection and maintenance requirements. As a result, CAP aircraft
    airworthiness could be jeopardized.

    Guidance. CAP Regulation 66-1, “CAP Aircraft Maintenance Management,”
    September 1, 1998 (revised on February 1, 2000), establishes standard aircraft
    maintenance management for CAP corporate-owned aircraft. To be considered
    airworthy, an aircraft must conform to FAA original-type certificate,
    original-type certificate as modified by an amendment, or supplemental-type
    certificate, and be issued a FAA Standard Certificate of Airworthiness. In



                                          8
addition, the regulation requires CAP to maintain and operate corporate aircraft
in accordance with applicable Federal aviation regulations including Federal
Aviation Regulation Part 43, “Maintenance, Preventive Maintenance,
Rebuilding, and Alteration,” and Part 91, “General Operating Flight Rules.”

Aircraft Inspections. The maintenance program should be based on aircraft
inspections conducted at specified intervals with prompt correction of any
discrepancies found during the inspections. Only FAA-certified mechanics,
fixed-base operators, or certified repair stations are authorized to perform
necessary tests or post-maintenance runs. CAP Regulation 66-1 requires wing
aircraft maintenance officers make periodic checks to ensure aircraft inspections
are performed in accordance with CAP regulations. From September 1999
through May 2000, we checked 86 corporate aircraft and reviewed the
maintenance performed between 1997 and 1999. Table 1 summarizes the
aircraft inspection requirement problems identified during the audit.

        Table 1. Summary of Problems Related to Aircraft Inspection
                             Requirements


                                                          Number of
                       Problem Areas                       Aircraft*    Percent

 50-Hour Inspection Over Fly                                 53           62

 Failure to comply with Spectrometric Oil Analysis
 Program                                                     60           70

 100-Hour Inspection Over Fly                                54           63

 Failure to Perform Annual Inspection                        25           29

 Failure to Inspect and Test Pitot Static and Altimeter      13           15

 Failure to Inspect and Test Transponder                     13           15

 Failure to Inspect Very High Frequency
 Omnidirectional Range Receiver                               9           10

 Failure to Inspect Emergency Locator Transmitters           17           20

 Failure to Replace Carbon Monoxide Detector                 18           21

 Lack of Listing of Airworthiness Directives in
 Aircraft Logbook                                            23           27

   *Out of 86 aircraft reviewed




                                       9
                   50-Hour Inspection. The 50-hour inspection is performed between
           40 and 60 hours, after the last 100-hour or annual inspection, to perform an
           interval oil and filter change and visually check for damage, leakage, or wear.
           The inspection was reidentifed on February 1, 2000, as a mid-cycle inspection.
           The aircraft must comply with the engine management spectrometric oil analysis
           program when maintenance conditions suggest monitoring or when a
           manufacturer service bulletin or letter is applicable. Processing a sample of the
           oil through an atomic absorption spectrophotometer performs the spectrometric
           oil analysis. The analysis will reveal the amount of suspended metal in parts per
           million. Identification of the nature and quantity of these metals helps identify
           excessively worn parts and can also predict failure long before the problem
           would otherwise appear. Logbooks for 86 aircraft revealed that between 1997
           and 1999 only 33 aircraft met inspection requirements. A total of 53 aircraft
           (24 in 1997, 33 in 1998, and 34 aircraft in 19991) over flew the maximum limit
           from 1 hour to 70 hours. Also, 60 aircraft did not have the spectrometric oil
           analysis done as required.

                   100-Hour Inspection. A 100-hour inspection is performed as required
           on an aircraft. The aircraft is returned to service in accordance with Federal
           Aviation Regulation Part 43. A 10-percent (10 hours) over fly is only
           authorized to reach a designated place of inspection. The excess time to reach
           the designated place of inspection will be included in computing the next
           100-hour inspection-due time. The regulation prohibits operation of the aircraft
           unless within the preceding 100 hours time in service the aircraft received an
           annual or 100-hour inspection and was approved for return to service in
           accordance with Federal Aviation Regulation Part 43. Logbooks for 86 aircraft
           revealed that between 1997 and 1999 54 aircraft (19 in 1997, 26 in 1998, and
           22 in 1999) over flew the 100-hour inspection by 1 hour to 97 hours.

                   Annual Inspection. The annual inspection is performed each
           12 calendar months and the aircraft is returned to service in accordance with
           Federal Aviation Regulation Part 43 by a FAA-certified mechanic holding an
           inspection authorization, a fixed-base operator, or a certified repair station. The
           regulation does not authorize over flies. However, 25 of the 86 aircraft did not
           meet the requirement between 1997 and 1999.

           Mandatory Inspection. Because of the number of serious CAP regulation
           compliance deficiencies in aircraft maintenance and documentation noted during
           the audit, the National Commander, CAP, ordered a one-time mandatory
           inspection of all CAP aircraft and their maintenance records.




1
    Numbers do not add up because aircraft may be counted in more than one year.



                                                    10
            Calendar Inspections. The regulation prohibits operation of a corporate
            aircraft unless components are inspected and logbooks updated at prescribed
            intervals in accordance with Federal Aviation Regulation Part 91. Calendar
            inspections include:

                    Pitot Static and Altimeter Inspection. Of the 86 aircraft inspected,
            13 did not meet the required inspection time frames (4 aircraft in 1997,
            5 aircraft in 1998, and 4 aircraft in 1999). Required for instrument flight rules,2
            the inspection and test of the pitot static and altimeter must be accomplished
            every 24 months and must be in compliance with Appendix E of Federal
            Aviation Regulation Part 43 and Part 91.

                    Transponder. All aircraft equipped with an Air Traffic Control
            transponder must have the transponder inspected and tested every 24 months and
            must be in compliance with Appendix F of Federal Aviation Regulation Part 43.
            Thirteen of the 86 aircraft did not meet the required inspection time frames
            (4 aircraft in 1997, 5 in 1998, and 4 in 1999).

                    Very High Frequency Omnidirectional Range Receiver. The very
            high frequency omnidirectional range receiver must be inspected and checked
            within 30 days of an instrument flight rules mission in accordance with Federal
            Aviation Regulation Part 91 and must be recorded in the appropriate logbook in
            the aircraft. Nine of the 86 aircraft were not recorded in the logbook.

                    Emergency Locator Transmitter. Required for all aircraft, the
            inspection of the emergency locator transmitter and the battery must be
            accomplished within each 12-calendar-month period. The battery must be
            replaced no later than the manufacturer’s recommended life cycle. Transmitters
            for 17 of the 86 aircraft were not inspected between 1997 and 1999.

                    Equipment. CAP corporate aircraft must be equipped with shoulder
            harnesses, fire extinguishers, secondary seat stops, avionics and control locks,
            cabin door hinge pins, cargo tie downs or cargo nets, carbon monoxide
            detectors, and survival kits. Shoulder harnesses and cabin door hinge pins were
            adequate but avionics control locks, cargo tie downs or cargo nets, and survival
            kits were not always found in the aircraft. In addition, fire extinguishers were
            not always mounted in the aircraft. For some of those that we found mounted in
            the aircraft, we did not find gauges and could not determine whether the fire
            extinguisher had been serviced or in working condition. Further, the carbon
            monoxide detectors must be replaced every 12 months. The carbon monoxide
            detectors for 18 of the 86 aircraft were not replaced as required.

            Airworthiness Directives and Service Bulletins. The CAP Regulation 66-1
            requires wing commanders and maintenance officers to ensure that assigned
            aircraft are in full compliance with FAA airworthiness directives and
            manufacturers’ mandatory service bulletins. CAP-USAF, Logistics Directorate,
2
    Instrument flight rules are rules governing the procedures for conducting instrument flights. It is also a
     term used by pilots and controllers to indicate type of flight plan.



                                                       11
     receives all FAA airworthiness directives and manufacturer bulletins and is
     required to send the documents to CAP-USAF liaison regions, CAP Supply
     Depot, and wings for dissemination to squadrons for compliance. After
     compliance, the wing maintenance officer is required to report the airworthiness
     directive and service bulletin findings to National Headquarters. However,
     CAP-USAF, Logistics Directorate, had not sent out airworthiness directives or
     manufacturer bulletins since June 1999. In addition, some maintenance officers
     did not have a separate listing of the applicable airworthiness directives in the
     aircraft logbook. Although aircraft mechanics noted in the logbook that the
     aircraft was in compliance with airworthiness directives and mandatory service
     bulletins when 100-hour or annual inspections were performed, we could not
     identify the applicable airworthiness directives and service bulletins that were
     used. A listing of applicable airworthiness directives was not in aircraft
     logbooks for 23 of the 86 aircraft.

     Maintenance Management. Wing and region commanders are responsible for
     assuring corporate aircraft are maintained in a safe, operable condition.
     Without proper supervision or adequate control, there is no assurance that the
     commanders are not subjecting assets and personnel assigned to undue risk. If
     delegated the authority, the Executive Director would be able to exercise
     effective and efficient management control.


Pilot Records
     CAP did not adequately manage pilot records to verify that CAP pilots are fully
     qualified to operate corporate aircraft and fly assigned missions. In addition to
     the wings not having a database of their active and inactive pilots, CAP may be
     releasing pilots for missions for which they are not qualified.

     Guidance. CAP Regulation 60-1, “CAP Flight Management,” August 1, 1998,
     establishes general operating rules, policies, and procedures to ensure safe and
     efficient conduct of CAP flight operations. Further, the regulation prescribes
     aircrew qualifications and requirements to fly CAP aircraft. CAP pilots must be
     active members of CAP and renew membership annually.

     Records Review. Pilot records were not properly maintained and the currency
     of applicable pilot certifications, including counterdrug, search and rescue, and
     disaster relief specialties, could not be determined. In addition, we could not
     adequately validate the currency of mission pilots because CAP Regulation 60-1
     did not have a requirement to maintain copies of applicable mission pilot
     certificates for search and rescue and disaster relief or counterdrug qualifications
     in the pilot records. From September 1999 through May 2000, we reviewed
     595 pilot records; 317 records were deficient. Table 2 summarizes the
     deficiencies in pilot records identified during the audit.




                                         12
                              Table 2. Summary of Deficient Pilot Records


                                                                        Number of
                     Deficient Area of Pilot Records                    Occurrences   Percent

            Current medical certificates were not on file                    67*        11
            Current biennial flight reviews were not on
            file                                                            127*        21
            Current CAP Form 5 flight checks were not
            on file                                                          69*        12
            Aircraft questionnaires were incomplete or
            missing                                                         119*        20
            CAP Form 5 written examinations were
            incomplete or missing                                           156*        27
            Statements of understanding were not on file                    56*          9
            Pilots were not properly designated in writing
                                                                             71*        12
            Certified Flight Instructor certificate expired
            or not on file                                                 11/264       4
            National Check Pilot Standardization Course
            certificate expired or not on file                             31/152       20
            Altered pilot records                                            6*          1
            CAP mission pilot checkouts were expired or
            missing                                                        43/285       15
               *Out of 595 pilot records reviewed

                  CAP Pilot. The basic record requirement for a CAP pilot is to have
           copies of the FAA pilot certificate and current medical certificate. To ensure
           the member complies with applicable CAP directives and regulations, the pilot
           record must also contain copies of a current annual flight check including proof
           of completion of the CAP written examination and the aircraft questionnaire,
           biennial flight review, and statement of understanding.

                   Written Designations. Of the 5953 records reviewed, there were
           112 instructor pilots, 152 check pilots, 296 cadet orientation pilots, 91 mission
           check pilots. To function as an instructor pilot, check pilot, cadet orientation
           pilot, or mission check pilot, the individual pilot must be designated in writing
           by the Executive Director, CAP, region commander, or wing commander.
           However, 71 pilots did not have the proper designations in their records.




3
    Numbers do not add up because a pilot may be counted in more than one category.



                                                    13
        Federal Aviation Administration Certified Flight Instructor.
Instructor pilots and check pilots are required to have a current Federal Aviation
Administration Certified Flight Instructor certificate for the appropriate category
of aircraft. This certificate is renewable every 2 years. Eleven of the
264 instructor and check pilots did not have a current certificate on file.

        National Check Pilot Standardization Course. Check pilots are
required to have a current National Check Pilot Standardization Course
certificate. This certificate is renewable every 2 years. Thirty-one of the
152 check pilots did not have a current certificate on file.

       Altered Records. Six pilot records appeared altered. The recorded
dates had been covered with white out and changed to reflect a current date.
Also, one record had a signature pasted to the record and photocopied to show
completion of a check ride.

       Mission Pilots. Forty-three of the 285 mission pilots did not have a
current mission pilot check ride on file. We could not ensure validity and
currency of mission training and specialty qualification cards because CAP
Regulation 60-1 did not contain a requirement for maintaining copies of
applicable certifications for search and rescue and disaster relief or counterdrug
mission pilots in the pilot records.

Suspension. During our review, wings took immediate corrective action and
suspended the pilots whose records were found to be deficient. The wings also
ensured that suspended pilots met currency before reinstating flying privileges.
However, CAP should take additional actions to ensure records are managed
effectively and efficiently. We also believe CAP would not be able to achieve
management and control of pilot records without proper file maintenance
procedures.

File Maintenance. CAP Regulation 60-1 requires unit commanders to maintain
a file or record on each active CAP pilot assigned to the unit. The regulation
also requires check pilot records to be duplicated and maintained at the wing.
To ensure currency and qualifications, CAP should have a central file for active
pilots. Without a central file, it would be possible that a check pilot’s records at
the wing may not contain the same data at the squadron level because the
documents were not copied from the same document and did not match each
other. Also, the pilots were maintaining two files, a personnel file and a pilot
certification file.

The personnel file contained all personnel records including items such as
military certificates, pilot certificates, and driver’s licenses and in some
instances was more complete than the pilot record files. File maintenance
would be more effective and efficient if personnel and pilot records were
consolidated in one file. Further, if CAP develops a universal indexing system
or a checklist (listing the certifications) and places the list in the front cover of
the file, it would ease the periodic review of the currency of pilot certifications.
Moreover, if active pilot files were maintained centrally at the wing


                                     14
     headquarters, the wing would have reliable information on the status of the
     pilots. Having the proper information support, the wings should be able to
     develop a database and distribute a monthly report to its units to ensure the
     currency and qualifications of its pilots, thus giving the wings an effective tool
     to efficiently manage pilot certifications. In addition, flight release officers and
     mission coordinators would have reliable information to use when assigning and
     releasing pilots for missions.


Mission Pilot Certifications
     CAP may be releasing mission pilots that did not meet qualification currency
     requirements, instead of suspending them from operations, because copies of
     specialty qualifications are not required to be included in the pilot records.

     Mission pilots are required to meet the qualifications for the operational
     specialty missions they fly. CAP Regulation 50-15(C2), “CAP Operational
     Mission,” February 1, 1996, prescribes concepts, policies, and standards for
     training and qualification of supervisory, flight, and ground personnel in the
     accomplishment of CAP operational missions.

     The regulation lacked provisions to ensure mission pilots and mission check
     pilots meet requirements for currency of certifications because it did not require
     copies of certifications to be included in the pilot records in accordance with
     CAP Regulation 60-1. Copies of CAP Form 101T, “Operational Mission
     Specialty Qualification Training Card,” CAP Form 101, “Operational Mission
     Specialty Qualification Card,” and CAP Form 101CN, “Counterdrug Specialty
     Qualification Card,” were not maintained in the pilot records. As a result, we
     could not determine the training status or mission qualifications of the mission
     pilots.

             CAP Form 101T. The wing or region commander issues a CAP
     Form 101T Card (101T card) to members who are training for any or all of the
     12 specialty rating qualifications (for instance, air or ground search coordinator,
     search and rescue and disaster relief mission pilot, mission observer, mission
     scanner), listed in CAP Regulation 50-15. A member may be in training for as
     many as three specialty ratings. To receive credit, the instructor endorses the
     member’s 101T card making notation of date, specialty, mission number, and
     type of mission including training hours flown by observers, pilots, and
     scanners.

             The 101T card does not have an expiration date and is retained for
     continued participation in a trainee status for any of the specialty rating
     qualifications. Each specialty rating is deleted once the member becomes
     qualified and the specialty rating is then added to the CAP Form 101. The
     member is authorized to participate in the specific mission activity, provided the
     member has a valid 101T card containing the particular specialty area.




                                          15
        CAP Form 101. The wing or region commander also issues CAP
Form 101 (101 card) to members who qualify as search and rescue and disaster
relief mission pilots. The 101 card is valid until the last day of the 24th month
from the date issued. To renew certification, search and rescue and disaster
relief mission pilots must be current and qualified and must complete a mission
pilot check ride in accordance with CAP Regulations 50-15 and 60-1.

       CAP Form 101CN. The National Headquarters issues CAP
Form 101CN (101CN card) to pilot members who are qualified to participate in
counterdrug mission operations. The counterdrug flight crew must be a current
and qualified search and rescue and disaster relief mission pilot, observer, or
scanner.

Counterdrug Missions. CAP may be releasing counterdrug mission pilots that
did not meet currency requirements. Members issued a 101CN card believed
they could not be grounded or eliminated from any counterdrug activities. The
members believed this because CAP Regulation 50-15 states that 101CN cards
issued to counterdrug mission pilots remain valid indefinitely unless membership
is terminated, the member fails to renew membership within 90 days of
expiration, or membership is revoked by the National Headquarters.

        Inadequate Database. Because counterdrug operations are funded
separately, the National Headquarters maintains a database of counterdrug flight
crews (observers, pilots, and scanners). However, the database is used only as
a tool to determine whether or not a member met the screening requirements of
the Drug Enforcement Agency and U.S. Customs Service. The National
Headquarters revokes the 101CN card if the member did not meet the screening
requirements of both the Drug Enforcement Agency and U.S. Customs Service.
However, we believe that the National Headquarters should have provisions for
revoking the 101CN card if a member did not meet currency and qualification
requirements in accordance with CAP Regulations 50-15 and 60-1. We also
believe that if the National Headquarters expands the database to contain
required currency information in accordance with CAP Regulations 50-15 and
60-1, the counterdrug program would have reliable information and a
management tool to ensure the mission pilots assigned to perform counterdrug
missions are current and qualified.

        Revision Requirements. To ensure currency and qualifications of
mission pilots, CAP Regulation 60-1 should be revised to include copies of
101T, 101, and 101CN cards in the pilot records. Causes for revocation of
101CN cards should be expanded to include currency of qualification
requirements. Unless CAP revises its revocation statement saying that a 101CN
card issued to counterdrug mission pilot remains valid indefinitely, counterdrug
mission pilots would continue to ignore requirements stipulated in CAP
Regulations 50-15 and 60-1 for a current search and rescue and disaster relief
certification. Therefore, the 101CN cardholders should be suspended from
participating in any counterdrug activity if the member has not met currency




                                    16
    requirements in accordance with CAP Regulations 50-15 and 60-1. Further, the
    101CN card should be revoked if currency requirements are not met within
    30 days.


Missouri Wing Accident
    The region commander reversed the suspension action on a pilot who exhibited
    a lack of knowledge of aeronautical subjects. Because the region commander
    said that the pilot was qualified, the pilot was allowed to continue to participate
    in flight activities. The same pilot was involved in a subsequent accident,
    whose cause is under investigation.

    National Transportation Safety Board. The National Transportation Safety
    Board may become involved in an investigation depending on the nature and
    severity of an accident or incident. If an investigation is performed, the
    National Transportation Safety Board report describes the probable causes for
    the accidents and also makes recommendations for corrective actions. While
    these reports are distributed to all units, the Executive Director could not ensure
    proper corrective actions were taken. Having no authority over the volunteer
    force, the Executive Director relies on each wing and unit to take the necessary
    corrective actions.

    Flight Check Requirements. CAP Regulation 60-1 requires specific actions
    and steps be taken for successful completion of a flight check. The pilot being
    evaluated must complete and pass required oral and written examinations prior
    to taking the flight check. The examinations test the applicant’s knowledge of
    the aircraft, for example, aircraft operating limitations, procedures,
    performance, and systems. If requirements are not met, the commanders could
    suspend pilots until successful completion of the oral and written examinations
    and flight check. The commanders also could require the suspended pilot to
    complete a special flight check.

    Suspension Reversal. At the Missouri Wing, in one case, the region
    commander did not support its wing commander’s action to suspend a pilot from
    flying. The region commander reversed the suspension action on a pilot who
    exhibited a lack of knowledge of aeronautical subjects. Because the region
    commander said that the pilot was qualified, the pilot was allowed to continue to
    participate in flight activities and subsequently was involved in an accident.

             Knowledge of Aeronautical Subjects. In September 1997, during a
    National Check Pilot Standardization Course, a check pilot for the Missouri
    Wing exhibited a lack of knowledge of aeronautical subjects and failed the oral
    examination. As a result, the Wing Vice Director of Operations removed the
    pilot’s flying privileges and status as a check pilot. The Wing Vice Director of
    Operations also required the pilot to retake the oral examination before his
    flying privileges and status as a check pilot would be reinstated. Rather than




                                         17
retaking the required oral examination, the pilot went back to the Wing Vice
Director of Operations to request reversal of the action. Unsuccessful, the pilot
went to the North Central region commander.

        Reprisal. The region commander, without investigating the matter,
asked the wing commander to order the Wing Vice Director of Operations to
reinstate the pilot’s flying status. However, because the wing commander felt
that the pilot was not qualified, he did not reinstate the flying status of the pilot
and resigned from his position. In addition, the region commander removed the
Wing Vice Director of Operations from his position as a National Check Pilot
Standardization Course Manager because the pilot in question also had been
reporting unsupported allegations that the vice director was not fully qualified.

        Flying Status Reinstatement. In a November 3, 1997, report to the
region commander, the Director of Operations, North Central Region, stated
that reinstatement should not have been done without a retest of the pilot’s
aeronautical knowledge and skills. The report also stated that removal of the
National Check Pilot Standardization Course Manager was not warranted. On
November 5, 1997, the region commander had the new wing commander
suspend the pilot until the pilot could exhibit knowledge of aeronautical subjects
and perform a satisfactory check ride. However, on January 31, 1998, the
grounded pilot retook his oral examination with the region commander rather
than with the Wing Director of Operations. As a result, the region commander
reinstated the grounded pilot’s flying privileges and status as a check pilot.

         Accident. On May 2, 1998, the new wing commander appointed the
fully reinstated pilot as the commander for the Missouri and Kansas Flight
Encampment program. However, on June 12, 1998, the pilot in question
removed himself as commander of the encampment and appointed himself as a
flight instructor. On June 19, 1998, as a flight instructor for two cadets, the
pilot rolled a Cessna 172 off the end of the runway while providing flight
instructions. Although no injuries were reported, the aircraft was severely
damaged.

        Federal Aviation Administration Notice. In a June 25, 1998, letter to
the pilot, the FAA stated that a reexamination of his competency was necessary.
The FAA suspended the pilot's flight instructor certificate and required the pilot
to take a flight instructor reexamination with the FAA Flight Standards District
office. The examination was to include appropriate practical test tasks with
emphasis on emergency landings. As of June 2000, the pilot had not been
reexamined for his flight instructor certificate and was still suspended from
flying. The accident is still the subject of an open National Transportation
Safety Board investigation.

        Improved Controls. To improve controls, authority should be delegated
to the Executive Director, CAP. Region commanders are members of the NEC
and have authority over the wings and squadron. However, the command chain
did not allow for an individual outside the chain to mediate concerning issues on
safety. In addition, from 1997 through 1998, the position of CAP-USAF liaison


                                     18
    officer was vacant. Had the Executive Director been delegated authority over
    safety issues, corrective actions would have been imposed and the pilot’s flying
    privileges would not have been reinstated until certification requirements were
    met. Further, CAP should establish an adverse review board to eliminate CAP
    command chain issues as presented above.


Conclusion
    The National Commander did not concur with delegating authority for
    management decisions associated with safety issues raised in our first report.
    However, our review revealed that the volunteer force was not fully complying
    with the CAP safety program. Aside from not meeting requirements for safety
    meetings, surveys, and inspections, the volunteer force did not always
    implement corrective actions recommended by the liaison offices. In addition to
    not being able to properly exercise accountability and management control of
    assigned assets, we believe the lack of control over safety issues by the
    Executive Director is subjecting assets and personnel to undue risks. Therefore,
    we believe that the Executive Director should be delegated the authority for
    management decision associated with safety and management of assigned assets
    (both aircraft and personnel).


Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the National Commander, Civil Air Patrol,
    through the National Board and the National Executive Committee:

           a. Delegate authority over the volunteer force to the Executive
    Director, Civil Air Patrol, for management decisions associated with safety
    and management control issues.

    CAP Comments. The National Commander, CAP, nonconcurred, proposing
    that the Executive Director be empowered as the final authority to suspend
    funding and recover assets from field units for failure to comply with safety and
    management requirements. The National Commander stated that he has
    delegated the authority to the Executive Director, but proposed that the
    volunteer leadership retain authority over volunteer members and the activities
    conducted by volunteer members. The National Commander stated that such
    shared authority, exercised diligently and cooperatively, does work.

    Audit Response. We agree with the National Commander’s concept but
    consider the comments to be nonresponsive. As we stated in Inspector General,
    DoD, Report No. D-2000-075, “Administration and Management of the Civil
    Air Patrol,” February 15, 2000, to make management decisions associated with
    management control issues and safety, the Executive Director must have some


                                       19
authority over safety issues. Without authority over safety issues, assets (both
equipment and personnel) could be subjected to undue risks and the Executive
Director would not be able to properly manage and control those assets. If the
National Commander would delegate some authority to the Executive Director
for management decisions associated with safety and management control issues,
with conditions similar to those expressed in response to Recommendations
A.2.c. and B.2.c., the intent of the recommendation would be met. Delegation
of authority with the condition that it would be used sparingly, and only after
consultation with the National Commander, would be consistent with the shared
leadership and management philosophy the National Commander expresses in
comments to other recommendations. Therefore, we request that the National
Commander reconsider his position and provide additional comments to the final
report.

       b. Create an adverse review board to eliminate Civil Air Patrol
chain-of-command issues discussed in this and the first report on the
Administration and Management of the Civil Air Patrol.

CAP Comments. The National Commander, CAP, concurred, stating that an
amendment to the CAP Constitution was adopted by the CAP National Board at
its August 17, 2000, meeting which created a Membership Action Review Board
that would review final adverse membership actions on appeal. Creation of the
Review Board, along with strengthening of the CAP Inspector General program,
should eliminate the chain-of-command issues identified in the report. The
National Commander expected to complete actions for the recommendation in
January 2001.

A.2. We recommend that the Executive Director, Civil Air Patrol:

       a. Obtain agreement with the Civil Air Patrol-U.S. Air Force to
have liaison offices monitor safety compliance.

CAP Comments. The National Commander, CAP, concurred, stating that the
Executive Director has initiated discussions with CAP-USAF to accomplish the
recommendation through the inspection program and Staff Assistance Visits
regularly conducted by CAP-USAF Liaison Region personnel. The National
Commander expected to implement the actions for the recommendation between
October 2000 and January 2001.

       b. Assign responsibility to the liaison offices to submit a report to
the Executive Director, Civil Air Patrol, through the Commander, Civil Air
Patrol-U.S. Air Force wings and squadrons that continuously ignore
recommendations for corrective action on discrepancies and deficiencies
found as a result of an inspection.

CAP Comments. The National Commander, CAP, stated that the Defense
Authorization Bill includes language that will transfer the wing liaison function
from CAP to the Air Force. In addition, the National Commander concurred,
stating that the Executive Director has initiated discussions with CAP-USAF


                                    20
requesting that the responsibility be assigned to the liaison offices at the same
time as transfer to CAP-USAF. The National Commander expected the
provision will be enacted into law and implemented by January 2001.

      c. Remove or reassign aircraft if a wing or a region repeatedly
shows discrepancies and prohibit CAP flying privileges in corporate and
member-owned aircraft.

CAP Comments. The National Commander, CAP, concurred in part, stating
that the Executive Director, in close coordination with the National
Commander, should have the final authority to remove or reassign aircraft if a
wing or region repeatedly fails to correct deficiencies found as a result of
inspections. The National Commander nonconcurred with the Executive
Director having authority to prohibit CAP flying privileges in corporate and
member-owned aircraft. The National Commander considered that authority to
be within the purview of the volunteer leadership (national, region, and wing
commanders), who should consult with the Executive Director and CAP USAF
Commander in the prudent exercise of the authority.

Audit Response. We agree with the National Commander’s concept but
consider his comments to be nonresponsive. If the National Commander would
delegate authority to the Executive Director to prohibit CAP flying privileges in
corporate and member-owned aircraft, with conditions similar to those
expressed in response to removing and reassigning aircraft in this
recommendation and to Recommendation B.2.c., the intent of the
recommendation would be met. Delegation of authority with the condition that
the authority would be used sparingly, and only after consultation with the
National Commander, would be consistent with the shared leadership and
management philosophy that the National Commander expresses in comments to
other recommendations. Therefore, we request that the National Commander
reconsider his position and provide additional comments to the final report.

      d. Verify airworthiness directives and service bulletins are
disseminated to wings and regions.

CAP Comments. The National Commander, CAP, concurred, stating that the
transfer of the CAP acquisition and logistics functions from CAP-USAF is in
process and CAP will assume responsibility for dissemination of the applicable
airworthiness directives and service bulletins. The National Commander
expected to complete actions in response to the recommendation by October 1,
2000.

       e. Direct wing and region maintenance officers to maintain a
separate list of applicable airworthiness directives and service bulletins in
the aircraft logbook.

CAP Comments. The National Commander, CAP, concurred, stating that
regulatory changes to airworthiness directives were being drafted and expected
the regulation will be published by January 2001. In addition, CAP is exploring


                                     21
methods for incorporating the data into the national database that is under
development and expected the database to be operational during the first quarter
of FY 2001.

          f. Direct wings to create a database that shows currency of active
pilots.

CAP Comments. The National Commander, CAP, concurred in part, stating
that rather than mandate that each of the 52 wings create a separate database,
creating a single national database would be more appropriate. The National
Commander also stated that CAP is exploring the possibility of outsourcing data
collection and data maintenance.

Audit Response. We do not consider the comments from the National
Commander to be fully responsive. We agree that a single national database
will provide visibility of currency information of active pilots to CAP leadership
and management as well as to CAP-USAF personnel. However, the comments
did not provide the details of the data collection and maintenance nor specify a
date by which the proposed action would be complete. Therefore, we request
that the National Commander provide additional comments in response to the
final report.

      g. Revise Civil Air Patrol Regulation 60-1 to ensure wing
headquarters is responsible for maintaining files of its active pilots.

CAP Comments. The National Commander, CAP, concurred, stating that a
revision of CAP Regulation 60-1 has begun, and expected to implement the
changes by January 1, 2001.

       h. Consolidate pilot records and personnel files and require a
universal index or checklist wherein pilot certification requirements are
placed on the front cover of each file to ensure currency of pilots.

CAP Comments. The National Commander, CAP, nonconcurred, stating that
reliance on paper files to make day-to-day decisions for a “far-flung national
organization” is an antiquated and unworkable approach. However, the
National Commander proposed to implement a national pilot database that would
be accessible by officials responsible for flight release decisions. Wing
personnel would be responsible for entering data used to verify the qualifications
of the pilot. Wing personnel would also be responsible for maintaining the
documentation in pilot record files for subsequent verification during inspections
or CAP-USAF staff assistance visits.

Audit Response. Although the National Commander nonconcurred, the actions
proposed meet the intent of the recommendation. We fully support automating
these records. However, the comments did not estimate a date by which the
proposed action would be complete. Therefore, we request that the National
Commander provide that estimate in response to the final report.



                                    22
       i. Expand the National Headquarters database of mission pilots to
ensure currency of certifications.

CAP Comments. The National Commander, CAP, concurred, stating the
actions planned in response to Recommendations A.2.f. and A.2.g. will
implement the recommendation.

        j. Revise Civil Air Patrol Regulations 50-15 and 60-1 to ensure cause
for revocation of specialty mission cards includes noncurrency of pilot
certifications.

CAP Comments. The National Commander, CAP, nonconcurred, stating that
by ensuring Flight Release Officers have access to a current and accurate
validated pilot qualification database for verifying pilot qualifications are current
would negate the need to rescind and reissue specialty mission cards.

Audit Response. Although the National Commander nonconcurred, the actions
addressed in the comments would satisfy the intent of the recommendation,
assuming that a fully functional database can be developed and deployed within
a reasonable time.

A.3. We recommend that the Commander, Civil Air Patrol-U.S. Air Force:

        a. Include in the corporate agreement creation of an adverse review
board to eliminate the Civil Air Patrol chain-of-command issues discussed
in this and the first report.

CAP-USAF Comments. Responding for the Commander, CAP-USAF, the
CAP Management Improvement Team nonconcurred with the recommendation,
stating that the recommended action is discussed in the change to the CAP
Constitution and By-laws passed by the CAP National Board in August 2000,
and that there was no need to address the change again in the cooperative
agreement. The Management Improvement Team also stated that the Board of
Governors will oversee future changes.

Audit Response. We consider the comments from the CAP Management
Improvement Team and the described actions to meet the intent of the
recommendation.

       b. Assign liaison offices to closely monitor safety compliance.

       c. Have liaison offices report to the Executive Director, Civil Air
Patrol, through the Commander, Civil Air Patrol-U.S. Air Force, those
wings that continue to ignore corrective actions recommended on observed
deficiencies.




                                     23
CAP-USAF Comments. The Management Improvement Team concurred with
Recommendations A.3.b. and A.3.c., stating that the requirements will be
included in the statement of work of the liaison officer and Noncommissioned
officer personal service contracts. The Management Improvement Team
expected to complete actions on the recommendations by February 1, 2001.




                                 24
           B. Aircraft Replacement Program
           CAP could not effectively administer its aircraft replacement program
           because it did not:

           •   adequately justify its goal to maintain a fleet with an average age of
               10 years,

           •   accurately maintain an inventory of its aircraft,

           •   report accurate and reliable aircraft usage data,

           •   adequately distribute aircraft among wings and regions,

           •   establish a separate procurement account, and

           •   use the Hull Self-Insurance account to replace totally damaged
               aircraft.

           As a result, CAP could not ensure effective and efficient accountability,
           distribution, or replacement of aircraft. Also, the use of the CAP
           Aircraft Modernization Program (CAMP) account for repair and
           replacement of aircraft had an appearance of impropriety. Moreover,
           the use of appropriated funds rather than the Hull Self-Insurance fund to
           replace damaged aircraft could affect the program goal to replace aircraft
           because of age.


Requirement
    CAP Regulation. CAP Regulation 67-4, “Acquiring, Reporting, and Disposing
    of Corporate Aircraft,” March 1, 1993, establishes policies and procedures for
    acquisition, reporting, and disposition of corporate aircraft. Corporate aircraft
    are acquired either from excess aircraft obtained from DoD sources, purchased
    with appropriated funds, purchased by CAP units, or donated by individuals,
    organizations, or states.

    Aircraft Fleet. In November 1996 during the NEC meeting, the National
    Board established a goal that the average age of the 530-aircraft fleet should not
    exceed 10 years. The National Board discussed the suitable number of aircraft
    CAP should maintain to support its mission. Although no supporting data were
    available, CAP and CAP-USAF presented conflicting criteria for the size of the
    fleet. CAP-USAF believed that the best size for the CAP fleet ranged between
    365 and 410 aircraft and the NEC believed that because of the growing number
    of mission requirements, the size of the fleet should be about 900 aircraft.

    CAP-USAF. Quoting independent studies from the Aircraft Owners and Pilots
    Association and the Cessna Pilots Association, CAP-USAF determined


                                        25
    530 aircraft was not the best size for the CAP fleet, and recommended that the
    best size was between 365 and 410 aircraft. CAP-USAF suggests income from
    the sale of old aircraft could be reapplied to future aircraft purchases and move
    the average age of the fleet toward the 10-year goal. According to CAP-USAF,
    a study determined that a reduction in fleet size was the only way to move the
    current average age toward the goal. Average utilization per assigned corporate
    aircraft varied significantly and from 1992 through 1995, wing averages per
    corporate aircraft assigned ranged from a low of 11 hours per year in one wing
    to a high of 165 hours per year in another. Therefore, CAP-USAF concluded
    that adjustments to the distribution of the fleet were needed. Also, CAP-USAF
    indicated that based on an assumption that the national average for annual
    funded flight hours per corporate aircraft was at an acceptable level of
    utilization with allowance for an occasional surge in a wing’s tasking. All
    wings could be provided sufficient corporate aircraft to meet the national
    average utilization and still allow for a reduction in the overall size of the fleet
    to a supportable level from an average age perspective.

             National Executive Committee. CAP did not agree that the annual
    funded flying hours average should be used as the national average for
    utilization and indicated that Air Force-funded missions accounted for less than
    44 percent of the total flying hours. From 1992 through 1995, CAP corporate
    aircraft flew a total of 430,896 hours, of which only 188,810 hours were
    Air Force-funded missions. CAP quoted data taken from 1992 through 1995
    flying reports compiled by the Operations Division, saying that the corporate
    fleet flew an average of 107,724 hours per year and that each corporate aircraft
    flew an average of 203 hours. Moreover, CAP presented a selected squadron’s
    flying average of 394 hours per year for the past 7.5 years. CAP further
    indicated that counterdrug and Air Force Reserve Officers Training Corps
    missions had increased 648 percent and 220 percent respectively during that
    time period. CAP also indicated that new agreements for search and rescue and
    disaster relief missions with agencies such as the Federal Emergency
    Management Agency and the Red Cross had increased. Thus, pilot proficiency
    needs pointed to a fleet size of 900 airplanes by FY 2002.

    Because no official studies have been performed to support each presentation,
    the National Board concluded that it would maintain its 530 aircraft fleet until
    further study. Based on the fleet size and procuring 27 aircraft a year, it would
    take about 15 years to replace the fleet which has an average age of 15.9 years,
    and achieve the goal of an average age of 10 years.


Fleet Average Age
    The CAP had not adequately justified its goal to maintain a fleet with an average
    age of 10 years. CAP had not conducted a study and had not identified criteria
    for replacing aircraft. CAP had been purchasing used aircraft to replace its old
    aircraft. For example, because some wings requested a bigger engine and the
    Cessna Aircraft Corporation was not building any single-engine aircraft, CAP



                                         26
    replaced the old Cessna 172 with a used Cessna 182. As a result, CAP may not
    have been procuring aircraft in the most economical manner and may undermine
    the goal of a fleet with an average age of 10 years.

    Independent Inquiry. CAP had not performed a study on airframe fatigue or
    replacement life of its aircraft. In November 1999, CAP replaced an aircraft
    because it had approximately 4,700 hours on its airframe. However, despite the
    aircraft’s age, squadron personnel believed it was one of the best performing
    and most reliable aircraft in the squadron. In January 2000, we made an
    independent inquiry of the Cessna Aircraft Corporation regarding airframe
    fatigue and replacement life of Cessna single piston engine aircraft. We found
    that the Cessna Aircraft Corporation had not established a useful life time frame
    for the 172R, 172SP, 182, or 206 airframes and that the appropriate time to
    replace airframes, in their opinion, is when it is no longer economical to
    continue operating them.

    Procurement. Beginning in FY 1997, the annual budget submission was based
    on CAP maintaining a fleet of 530 aircraft and replacing approximately
    27 aircraft per year. Between FY 1997 and 1999, CAP purchased a total of
    35 new and 23 used aircraft—20 new and 1 used aircraft in FY 1997, 15 new
    aircraft and 12 used in FY 1998, and 10 used aircraft in FY 1999. We could
    not determine the number of aircraft replaced or sold because the CAP
    inventory did not reflect those numbers. However, comparing the flying hours
    report with the inventory, we believe that aircraft were not being replaced and
    that the inventory was growing. As of June 2000, we determined that the
    inventory contained 574 aircraft.


Inventory
    Active Aircraft. The CAP did not maintain an accurate inventory of its aircraft
    fleet, and we could not determine the actual number of active aircraft. Because
    the number of active aircraft in the inventory did not match flying reports, we
    believe the aircraft that were supposed to be replaced were, in fact, retained.
    For example, in 1999 the inventory reported a total of 584 aircraft. However,
    the flying report showed there were 574 aircraft with total flying hours of
    109,023. In addition to not matching the 1999 flying report, the inventory did
    not reflect an accurate count of the aircraft. For example, although two aircraft
    maintained in Maryland for use by the Congressional Squadron were in the
    inventory, we concluded that the aircraft were not being flown because no flying
    data were reported in 1999. Further, aircraft replaced were not removed from
    the inventory and the aircraft staged for sale were not annotated. We attempted
    to match the inventory provided by the Logistics Division with the 1999 annual
    flying report. However, our review indicated that the inventory contained
    584 aircraft while the flying report showed 574 aircraft.

    Database. CAP did not ensure proper accountability of aircraft and did not
    maintain a complete and up-to-date inventory database. CAP also did not



                                       27
     develop a centralized maintenance management program to account for costs
     associated with operation, maintenance, and depreciation of corporate aircraft.
     In addition, CAP did not assign code numbers to facilitate identification and
     location of powered and nonpowered aircraft. Also, information for each
     aircraft (for example, tail number, cost, year manufactured, aircraft code, date
     acquired), was not always entered in the database. Further, the database did not
     contain information as to whether the aircraft had been replaced, sold, or
     scrapped, including value of the aircraft when it was taken out of the inventory.
     Moreover, proper accountability of active aircraft could not be determined
     because operations personnel could not access the inventory database. Without
     a well-managed inventory, proper distribution of aircraft could not be achieved.


Usage Data and Distribution of Aircraft
     The CAP did not report accurate and reliable data and could not ensure proper
     accountability and usage of assigned aircraft. Wings did not always compile
     monthly flying hour data for monthly submission. Without accurate flying data,
     it is impossible to determine actual usage and proper distribution of aircraft.

     Aircraft Usage Projection. In November 1996, although not validated, the
     NEC stated that from calendar year 1992 through calendar year 1995, corporate
     aircraft flew a total of 430,896 hours, averaging 107,724 hours per year, or a
     yearly average flight for each aircraft of 203 hours. The NEC also stated that
     “counterdrug flights had grown from 584 hours in FY 1992 to over
     40,000 hours per year in FY 1996, an increase of 648 percent for the period.”
     However, we could not validate the flying hours because the numbers were only
     estimates and not based on the actual number of hours flown.

     CAP Annual Report to Congress. Our review of “CAP Annual Report to
     Congress” for FY 1998 and FY 1999 reveals that flying hours for counterdrug
     and search and rescue do not agree with the number of hours gathered from the
     volunteer force. For example, the FY 1998 report to Congress shows
     41,722 hours for counterdrug and 9,525 hours for search and rescue rather than
     the 38,519 hours and 8,597 hours, respectively, reported on the CAP Form 18,
     “CAP Monthly Flight Hour Reporting.” The FY 1999 report shows
     37,687 hours on counterdrug and 8,900 hours for search and rescue rather than
     the 31,994 hours and 7,686 hours, respectively, reported on the CAP Form 18.
     CAP estimated the number of flying hours for those wings that had not reported
     their flying hours. (See Appendix C for the detailed hours reported to Congress
     for FY 1998 and FY 1999.)

     Flying Reports. The wings ignored requests from the National Headquarters
     and did not compile monthly data to ensure accurate reporting of hours flown.
     Although the wings were repeatedly reminded, the Executive Director could not
     enforce the requirement to report flying hour data because he did not have
     authority over the volunteer force. As a result, efforts to gather accurate
     aircraft usage data could not be achieved.



                                        28
        Electronic Reporting. The common reason used by the volunteer force
for not reporting usage was that flying hour reports were getting lost in the mail.
Therefore, in FY 1998 in an effort to facilitate gathering flying hour data and
eliminate using the mail system, CAP implemented electronic reporting of CAP
Form 18. However, some wings still have not compiled the data and continue
to ignore reporting requirements. For example, in FY 1998, the Massachusetts,
Vermont, Tennessee, and California Wings did not report flying hours for
September. In FY 1999, the New York Wing did not provide its flying hours
for June, July, August, and September. The California Wing also failed to
submit a flying hour report for October, November, January, April, May, July,
and August during FY 1999. Other wings that did not report were Nebraska,
Nevada, and Oregon. In FY 2000, as of June 13, 2000, CAP had not received
reports from the New York Wing for February, March, April, and May. The
Louisiana Wing had not reported for October, November, January, and
February. The Missouri and Tennessee Wings had not reported for April and
May. The New Mexico Wing had not reported for January, February, March,
April, and May. Because no flying-hour data were reported, it would appear
that the aircraft had not been flown and would be available for reassignment.

        Actual Aircraft Usage. Our review of the FY 1998 flying hours
indicated that the CAP fleet consisted of 585 aircraft that averaged 197 hours.
In FY 1999, CAP reported a 574 aircraft fleet with an average usage of
190 hours. Further examination of the flying reports indicated that the aircraft
were not equally distributed. For example, we found 28 aircraft that were in the
inventory but did not report any flying hours. In addition we found five aircraft
that were listed as flown by two wings that may have overlapping and duplicate
usage (See finding C.)

        In FY 1999, CAP reported 168 aircraft assigned to 14 wings that
averaged over 250 hours (Table 3). However, aircraft with low usage were not
redistributed. For example, 40 aircraft at 4 wings averaged only 77 hours
(Table 4). In addition, 6 aircraft assigned to regions hardly flew and averaged
only 38 hours (Table 5). See Appendix D for a complete list of FY 1998 and
FY 1999 flying hours by wing and region.




                                    29
         Table 3. High Usage Aircraft Assigned to Wings

        Wings          Hours     Aircraft   Average Hours
Arkansas               2,534        9            282
California             6,321       24            263
Florida                5,239       20            262
Indiana                1,869        8            234
Maine                  1,878        8            235
Massachusetts          2,127        8            266
Michigan               2,112        7            302
Nevada                 2,103        8            263
New Jersey             1,406        6            234
North Carolina         2,683        9            298
Texas                  7,725       29            266
Utah                   2,133        9            237
Washington             2,527        9            281
Wisconsin              3,435       14            245
        Total         44,092       168           262


      Table 4. Low Usage Aircraft Assigned to Wings

       Wings          Hours      Aircraft   Average Hours
Kentucky               694         11            63
Missouri               544          7            78
New Hampshire          307          5            61
New York              1,523        17            90
       Total          3,067        40            77


  Table 5. Low Usage Aircraft Assigned to Headquarters

    Headquarters      Hours      Aircraft   Average Hours
Middle East Region     25           2            13
Northeast Region       181          3            60
Southeast Region       22           1            22
        Total          228          6            38




                        30
    Suspension or Reduction of Aircraft. If all wings and regions comply with
    requirements to report actual usage of assigned aircraft, the headquarters would
    be able to properly determine actual usage and redistribute aircraft with low
    usage. Headquarters should suspend flying activities for wings that
    continuously fail to report flying data. If the wings still continue to not comply
    with reporting requirements, then the number of aircraft assigned should be
    reduced or the aircraft removed and reassigned.


Procurement Account
    CAP did not establish a separate account for the aircraft replacement program
    and was using the CAP Aircraft Modernization Program (CAMP) as a
    pass-through account for procurement, maintenance, repair, and upgrade of
    aircraft. Using the CAMP fund as a pass-through account could result in an
    appearance of commingling funds.

    CAP Aircraft Modernization Program Fund. The CAMP fund started out in
    1976 as the Aircraft Modernization Program. CAP used the Aircraft
    Modernization Program fund as an internal corporate fund to acquire and
    modernize CAP aircraft through the use of corporate funds produced by the sale
    of DoD excess aircraft, parts, and associated materials. In December 1996, the
    NEC passed a resolution to terminate the Aircraft Modernization Program fund
    and establish the CAMP fund as a supplement to the annual appropriations
    solely for the support, maintenance, and modernization of the CAP aircraft
    fleet. The CAMP fund was initially established by the transfer of the balance of
    monies from the Aircraft Modernization Program fund but is now funded by the
    proceeds from the sale of aircraft, parts, and associated materials acquired from
    appropriated funds or DoD excess. However, the CAMP fund is also used as a
    pass-through account for expenses or costs reimbursed by appropriated funds for
    the procurement and maintenance of the aircraft.

    CAP Aircraft Modernization Program Fund Guidance. The CAMP fund did
    not have definitive guidance on what modernization would entail. Information
    gathered indicated that the CAMP fund was being used for any program that did
    not meet the specification for major maintenance or when regions or wings did
    not meet requirements for major maintenance reimbursement. CAP
    Regulation 66-1, “Civil Air Patrol Aircraft Maintenance Management,”
    February 1, 2000, states that for proper use and control of Air Force
    appropriated funds, the CAP Logistics Management Division will reimburse
    major maintenance items such as engine changes, engine top-overhauls, and
    cylinder repair or replacement. Propellers and propeller governor overhauls,
    new avionics package upgrades, exterior paint, and interior refurbishment were
    also considered major maintenance and reimbursable by appropriated funds.
    However, under the new avionics package upgrades, the regulation stipulated
    individual avionics or instrument component repair or replacement was not
    reimbursable with appropriated funds. The regulation further states that main
    stack avionics repair or replacement is eligible for the radio exchange program



                                        31
     funded from the CAMP fund account. We determined the terminology of new
     avionics upgrades and individual avionics to be confusing. Further, we could
     not determine the true meaning of the radio exchange program funded from the
     CAMP fund account. For example, very high frequency-frequency modulation
     high band transceivers are reimbursed by appropriated funds and not funded
     from the CAMP account. Although CAP explained that the very high
     frequency-frequency modulation, high-band transceivers were required
     replacements or upgrades for the aircraft, we believe that if CAP continues to
     use the CAMP fund without definitive guidance, it increases the risk that
     improprieties could occur. Separation of accounts for procurement and
     maintenance of the aircraft would improve accountability and traceability of
     spending.


Hull Self-Insurance
     CAP was not using the Hull Self-Insurance account but was using appropriated
     funds to replace totally damaged aircraft involved in accidents. As a result,
     CAP may not be able to achieve its goal to have a 10-year average aircraft fleet.

     Insurance Coverage. CAP established the Hull Self-Insurance account in early
     1980 as a noncommercial program intended to provide a ready means for
     repairing or replacing corporate aircraft involved in accidents. CAP decided to
     self-insure because they were paying more in premiums on a commercial policy
     than sustained in losses. The volunteer members paid an annual premium base
     rate of 1 percent of the fair market value for each aircraft assigned to a unit,
     wing, or the region within which he or she was a member. CAP established a
     reserve of $500,000 and if the reserve account exceeded $700,000, the National
     Commander could credit a pro rata amount to accident free wings. Coverage on
     an aircraft was automatically cancelled when the aircraft was totally damaged or
     sold. Monies derived from a total loss were transferred into the wing’s or
     region’s Aircraft Modernization Program account for use in the procurement of
     aircraft, associated equipment or parts, or major aircraft repairs.
     Damaged Aircraft Replacement. In May 1997, the NEC made a decision to
     replace damaged aircraft with appropriated funds rather than use the Hull
     Self-Insurance account. The NEC explained that before funds were
     appropriated for the purchase of aircraft, CAP allowed the expenditure of
     income from the Hull Self-Insurance account to replace a limited number of
     aircraft.

     Account Balance. In October 1997, payment of premiums was discontinued
     and CAP invested the balance. Although we could not determine the current
     account balance, as of September 30, 1998, the balance was approximately
     $1.4 million. Appropriated funds are being used to replace damaged aircraft.




                                        32
    CAP should dissolve the account and use the fund balance to purchase
    equipment needed by the wings and volunteer membership, since the members
    paid into the account.

    Guidance. CAP Regulation 66-1, “Civil Air Patrol Aircraft Maintenance
    Management,” February 1, 2000, stipulates that only maintenance as a result of
    an accident or incident is reimbursable from the CAP Hull Self-Insurance
    account. Although we noted that the account was used to cover some minor
    repair work, guidance should be revised to stipulate that wings and regions are
    responsible for minor maintenance or repair. This is based on the fact that
    monies derived from the sale of a totally damaged aircraft were transferred to
    the wing or region Aircraft Modernization Program.

    Aircraft Purchases. From FY 1997 through FY 1999, CAP purchased
    58 aircraft, of which 35 were new aircraft and 23 were used aircraft. However,
    we could not determine the number of aircraft purchased to replace totally
    damaged aircraft and vice versa. CAP should properly identify the age of those
    replaced damaged aircraft and the age of the aircraft that replaced the damaged
    aircraft for consideration in computing the average age of aircraft fleet. CAP
    should also determine the actual usage of its fleet to ensure that purchase of
    aircraft is valid.


Conclusion
    In 1996, the NEC decided to establish a goal of 10 years average age for its
    530 aircraft fleet. However, that average age may not be feasible because
    efforts to have an accurate inventory and balanced distribution of aircraft were
    not achieved. The NEC also passed a resolution to replace the Aircraft
    Modernization Program with the CAMP fund and allowed the use of the CAMP
    fund as a pass-through account for the procurement, maintenance, repair, and
    upgrade of aircraft. Further, in 1997, although decisions were made to use
    appropriated funds and not the Hull Self-Insurance to purchase and replace
    damaged aircraft, the NEC did not consider whether only new aircraft should be
    purchased to achieve its goal of having a fleet with an average age of 10 years.
    If CAP conducts a study of aircraft usage, maintains an accurate inventory of
    aircraft, reports accurate flying data, adequately distributes aircraft among
    wings and regions, and establishes a separate procurement account, CAP would
    be able to ensure accountability and effective and efficient management control
    of its assets and spending.




                                       33
Recommendations, Management Comments, and Audit
  Response
    B.1. We recommend that the National Commander, Civil Air Patrol,
    through the National Board and the National Executive Committee:

           a. Conduct a study of its fleet using actual inventory and usage data.

    CAP Comments. The National Commander, CAP, concurred, stating that a
    study of CAP fleet has been initiated and expected actions will be completed by
    October 1, 2002.

           b. Redefine criteria and specify items reimbursable from the Civil
    Air Patrol Aircraft Modernization Program account.

    CAP Comments. The National Commander, CAP, concurred, stating that the
    CAP Financial Management and Logistics Directorates are developing redefined
    criteria and specifying items reimbursable from the Civil Air Patrol Aircraft
    Modernization Program account. The National Commander expected
    implementation of the actions by November 1, 2000.

           c. Dissolve the Hull Self-Insurance account.

    CAP Comments. The National Commander, CAP, nonconcurred, but
    proposed to review and redefine criteria and specify items payable from the Hull
    Self-Insurance account, then use the account for that purpose. The National
    Commander also stated that the Executive Director will recommend at the
    November 2000 meeting of the National Executive Committee that aircraft
    destroyed by accidents should be replaced using Hull Self-Insurance funds.

    Audit Response. Although the National Commander nonconcurred, the
    proposed action could correct the cited condition and root cause. However,
    without an opportunity to review the criteria, we cannot determine if the
    proposed action will satisfy the intent of the recommendation. Therefore, we
    request that the National Commander provide the details on the proposed
    changes in the criteria for the Hull Self-Insurance account in response to the
    final report.

            d. Delegate authority to the Executive Director to ensure proper
    management and usage of aircraft and to ensure successful implementation
    of the corporate goal to have an aircraft fleet with an average age of
    10 years.

    CAP Comments. The National Commander, CAP, concurred, stating that
    authority had been delegated to the Executive Director. The National
    Commander also stated that the CAP Operations Committee has been reviewing
    the corporate goal to have an aircraft fleet with an average age of 10 years and


                                       34
will recommend action to the National Executive Committee at the
November 2000 meeting. Further, the National Commander indicated that the
Executive Director would implement the resulting policy.

B.2. We recommend that the Executive Director, Civil Air Patrol:

        a. Revise and update aircraft inventory and assign codes to facilitate
identification of aircraft (powered and nonpowered) including replaced
aircraft. The inventory must also include applicable information on the
aircraft, such as date of purchase, purchase price, date replaced, selling
price, tachometer hours at time of purchase, and unit receiving monies
from the sale of totally damaged aircraft.

CAP Comments. The National Commander, CAP, concurred, stating that
preparation to revise and update the inventory in connection with the transfer of
the logistics and acquisition functions from the Air Force to CAP has already
begun. The National Commander expected action will be completed during the
first quarter of FY 2001.

       b. Establish procedures that:

              (1) Require units to report actual number and type of
       aircraft assigned to ensure accountability.

              (2) Identify aircraft that have been destroyed, reassigned,
       replaced, refurbished, or sold.

              (3) Remove aircraft that have been destroyed, replaced, and
       sold from the inventory.

              (4) Monitor reporting of monthly flying hours and ensure the
       aircraft flown match aircraft in the inventory.

CAP Comments. The National Commander, CAP, concurred, stating that the
Executive Director has tasked the CAP Logistics Directorate to develop the
recommended changes to CAP Regulation 67-4, “Acquiring, Reporting, and
Disposing of Corporate Aircraft,” and complete the procedures that accomplish
Recommendations B.2.b.(1), B.2.b.(2), and B.2.b.(3) by January 1, 2001. In
addition, the Executive Director has tasked the CAP Directors of Financial
Management, Logistics, and Operations to develop procedures to accomplish
Recommendation B.2.b.(4) within the first quarter of FY 2001.

       c. Suspend flying activities for those wings that continuously fail to
report flying hours and reduce the number of aircraft assigned to wings
that continue to ignore reporting requirements even after suspension action
has been rendered.

CAP Comments. The National Commander, CAP, partially concurred, stating
that flying activities for those wings that continuously fail to report flying hours


                                     35
as required should be suspended. The National Commander stated that the
authority to suspend flying activities should remain with the National
Commander and the authority to reassign aircraft should be exercised by the
Executive Director with prior approval of the National Commander.

Audit Response. We agree with the National Commander’s concept but
consider his comments to be nonresponsive. If the National Commander would
delegate authority to the Executive Director to suspend the flying activities of
those wings that continuously fail to report flying hours as required, with
conditions similar to those expressed in response to reassigning aircraft in this
recommendation and to Recommendation A.2.c., the intent of the
recommendation would be met. Delegation of authority with the condition that
it would be used sparingly, and only after consultation with the National
Commander, would be consistent with the shared leadership and management
philosophy that the National Commander expresses in comments to other
recommendations. Therefore, we request that the National Commander
reconsider his position and provide additional comments to the final report.

       d. Redistribute aircraft with low usage to wings and regions with
high usage.

CAP Comments. The National Commander, CAP, concurred, stating that he
had been reviewing aircraft usage data and intends to order the first
redistribution of aircraft in the “organization’s recent history” during
October 2000. The National Commander also stated that the Executive Director
will take action to ensure the redistribution.

       e. Establish aircraft procurement and major maintenance accounts
separate from Civil Air Patrol Aircraft Modernization Program.

CAP Comments. The National Commander, CAP, nonconcurred, stating that
aircraft procurement and major maintenance were proper uses of the account.
The National Commander proposed to review and redefine criteria and specify
items payable from the account as discussed in response to Recommendation
B.1.b.

Audit Response. Although the National Commander nonconcurred, the
proposed action could correct the cited condition and root cause. However,
without an opportunity to review the criteria, we cannot confirm the intent of
the recommendation would be met. Therefore, we request that the National
Commander provide the specific details to support the changes in the criteria for
the account in response to the final report.

       f. Revise CAP Regulation 66-1, “Civil Air Patrol Aircraft
Maintenance Management,” February 1, 2000, to stipulate that wings and
regions are responsible for minor maintenance or repair as a result of an
accident or incident of an assigned aircraft.




                                    36
CAP Comments. The National Commander, CAP, nonconcurred, stating that
CAP proposed to pay out of the Hull Self-Insurance fund all maintenance or
repair costs that resulted from an accident or incident.

Audit Response. Although the National Commander nonconcurred, the
proposed action could meet the intent of the recommendation. However, the
regulation would still require a revision to not only permit the action but
redefine the criteria and specify the types of expenses payable from the Hull
Self-Insurance fund. Therefore, we request that the National Commander
provide additional comments in response to the final report.

      g. Establish the Civil Air Patrol Aircraft Modernization Program
account as a separate account to adequately trace wing and region
reimbursements.

CAP Comments. The National Commander, CAP, concurred, stating that the
action has been completed.




                                   37
            C. Flying Program
            CAP did not have supporting documentation, so it could not validate the
            115,000 flying hours for FY 1998 and the 109,000 flying hours for
            FY 1999 for reimbursable and nonreimbursable missions because CAP
            did not have a source document to support monthly flying hour reports.
            As a result, without a supporting document flying hours reported
            monthly could not be validated. In addition, claims for reimbursements
            such as counterdrug, search and rescue, liaison proficiency flying, or
            other missions, could be claimed or reimbursed more than once.


Validation of Flying Hours
     CAP could not adequately validate the 115,000 and 109,000 flying hours for
     FY 1998 and FY 1999, respectively, for reimbursable and nonreimbursable
     missions because no records to support claims for reimbursement were
     maintained.

     Counterdrug Missions. We could not validate hours claimed for counterdrug
     missions. For example, on March 28, 2000, the Pennsylvania Wing submitted
     3 vouchers totaling 285 hours for missions performed between FY 1996 and
     FY 1997. Although the liaison noncommissioned officer approved the voucher
     for payment, we could not verify the hours flown because neither the
     headquarters nor the liaison office maintained supporting records.

     We could not determine whether the hours had already been reported or
     duplicate entries of the flying hours had been made for the aircraft between
     FY 1997 and FY 2000. For example, examination of the CAP Form 108,
     “CAP Payment and Reimbursement Document for Aviation, Automotive, and
     Miscellaneous Expenses,” reported that Cessna 182 aircraft, number N9944H
     and Cessna 182RG aircraft, number N6420T, flew 7 hours and 6 hours
     respectively on February 28, 1997. The CAP Form 108 also had claims for the
     same aircraft for 9 hours and 6 hours respectively on March 16, 1997. We
     could not validate the hours because there were no records to support the claims
     that the missions were actually flown.

     Search and Rescue Missions. We could not validate the actual number of
     hours flown in performing search and rescue missions because CAP did not
     have a one-source document on file to support hours claimed. The Commander,
     Air Force Rescue and Coordination Center, coordinates the search and rescue
     missions. However, validation of the hours flown is the responsibility of the
     wing. The wing is responsible for checking the pilot claims for reimbursements
     and forwards the claims to the wing liaison office for review and processing.
     The wing liaison office forwards the claims to the region liaison office (active
     member of the Air Force) for final approval. The liaison region office is
     responsible for sending the claims for reimbursement to the Defense Finance



                                        38
    and Accounting Service. If a source document were developed, CAP and
    CAP-USAF would have a supporting document to validate actual hours flown
    for search and rescue missions.

    Liaison Officer Proficiency Flying Hours. We could not validate proficiency
    flying hours flown by the liaison officers because of the lack of supporting
    documents. In FY 1998 and FY 1999, the number of hours reimbursed by the
    Financial Management Office for liaison officer proficiency flying hours did not
    match hours reported on the flying report. In FY 1998, the number of hours
    reimbursed totaled 3,374 compared with 2,935 flying hours reported. In
    FY 1999, the Financial Management Office paid for a total of 3,029 hours.
    However, the flying report only showed 2,540 hours as being flown. To ensure
    accurate hours are reimbursed, CAP should implement a one-source document
    that can support the number of hours claimed for reimbursement.

    Reassigned Aircraft. We could not validate the actual hours flown for aircraft
    reassigned to or flown by other wings. In FY 1999, there were five aircraft
    reported as being flown by two wings and may have overlapping or duplicate
    usage reported. For example, the Mississippi and Tennessee Wings claimed
    usage of 57 and 41 hours respectively for aircraft number N1472F. The
    Arizona and Tennessee Wings claimed 285 and 294 hours respectively for
    aircraft number N9307X. Without the proper source document, the actual hours
    flown for each aircraft could not be validated. To avoid duplicate entries of
    flying hours for a reassigned aircraft, the unit losing the aircraft should be given
    credit for the hours flown while assigned in the unit. The unit gaining the
    aircraft should start compiling flying hours from the last tachometer reading.


Filing Requirement
    Although the liaison offices approved the public vouchers based on the
    Air Force mission authorization number and dates the mission was flown, we
    could not validate the flying hours claimed for reimbursement by the wings.
    Officials at the Operations Division of the National Headquarters were not
    included in the approval chain to ensure that claims for reimbursement for
    missions flown were valid and that the actual hours flown for the particular
    aircraft were not entered more than once on the flying report.

    Central Filing. CAP had not considered having a central record for flying
    hours reported and CAP did not have a mechanism to validate mission hours
    that were reported late. CAP had not considered assigning the CAP-USAF
    liaison offices as a central facility for maintaining, reporting, tracking, and
    validating flying hours for each wing to ensure proper accountability of
    reimbursable and nonreimbursable missions. As of FY 1996, the wings compile
    and report flying hours for each of the aircraft assigned; however, we could not
    validate actual hours flown or hours claimed for reimbursement because CAP
    did not have a flying activity record file for each aircraft assigned. For




                                        39
    example, to adequately validate actual hours, it is necessary to obtain each
    applicable aircraft flying logbook to compare the number of hours claimed with
    the hours shown in the logbook.


Source Document
    Record Filing. Until the electronic reporting system CAP proposes becomes a
    reality, CAP should develop a manual system for tracking and validating
    mission hours. The document generated from the manual system could be filed
    centrally at the liaison offices, thus providing both CAP and CAP-USAF with
    an adequate tool to support and validate reimbursable and nonreimbursable
    mission hours. As an example, if a source document were developed, the pilot
    would be responsible for correctly filling in the necessary data and information.
    The pilot would print his name, enter the actual tachometer reading (before and
    after the flight), and actual number of flying hours, type of mission
    (reimbursable or nonreimbursable), applicable mission approval number, and so
    forth, for the particular corporate or member-owned aircraft flown. When the
    mission is complete, the pilot would sign and date the document, retain a copy
    in the aircraft flight log, and send the original to the liaison office for filing and
    compiling flying hours for each month. Having done this particular action, both
    the aircraft flight log and the liaison office have a record of the flying hours.

    If the mission were reimbursable, the responsible official at the National
    Headquarters would also have a record of the flight. This type of approval
    process would ensure that the original of the source document is attached to the
    voucher for which a member or the wing claimed reimbursement and sent to the
    official designated to approve reimbursement claims at the National
    Headquarters. To ensure actual flying hours are reported, the liaison offices
    should compile the monthly flying report. The report should also annotate the
    units that have not reported. It should be forwarded to the National
    Headquarters no later than the 10th day of the following month.


Payment Approvals
    Approval for payment of vouchers was not adequate to ensure claims for
    reimbursements were valid because CAP had not developed a source document
    to support the hours claimed. Although the liaison officer or the liaison
    noncommissioned officer approves the vouchers, except for search and rescue
    missions, the CAP-USAF Financial Division should not allow reimbursement
    until claims are validated and approved by responsible officials at the CAP
    National Headquarters. The CAP Financial Management Office should obtain
    approval of responsible Operations Division officials before paying claims for
    reimbursements by the wings.

    Process. To ensure accuracy, both CAP and CAP-USAF financial offices
    should require approval of the CAP Operations Division before payment of


                                         40
     reimbursement claims. As an example, when the wings submit claims for
     reimbursements, the wing or region liaison office should compare the number of
     hours claimed for reimbursement by the wing with the source documents. Once
     the reimbursement claim is validated, the liaison office would approve the
     voucher for payment. The wing or region liaison office would sign the
     applicable source documents, retain the second copy, and send the original and
     the voucher to the National Headquarters for a second approval. With the
     mission validated, the official would send the voucher for payment to the
     responsible paying official (CAP or CAP-USAF financial management office)
     and retain the original source document for filing. The CAP Financial
     Management Office would then be assured that the hours claimed and paid to
     the wings are valid and the CAP-USAF Financial Management Office would be
     assured that reimbursement claims are valid when it sends the vouchers to the
     Defense Finance and Accounting Service.

     Search and Rescue Mission Reimbursements. Liaison Region Offices are
     responsible for submitting claims for search and rescue mission reimbursement
     to the Defense Finance and Accounting Service. Because search and rescue
     mission reimbursement claims are sent to the liaison region office for
     processing, the wing liaison office could make copies and attach the copies of
     source documents to the voucher. The liaison office could also send the original
     to the responsible official at the National Headquarters for filing and as support
     for the actual number of hours flown for search and rescue missions.


Responsibilities
     Pilot Responsibility. If the one-source document is implemented, CAP should
     revise the CAP Regulation 60-1, “CAP Flight Management,” to ensure that all
     pilots comply. CAP should take action against any pilot who does not comply
     and suspend the pilot from participating in any flying activity for a specific
     period. If the pilot continues to ignore requirements, CAP should revoke
     applicable mission flying certifications. If corrective actions are exhausted,
     CAP should terminate the pilot’s membership in CAP.

     Liaison Office Responsibility. The liaison office, as the central facility for the
     wing and region, should set a monthly cut-off date for timely reporting. The
     liaison office should assist in compiling actual flying hours for each aircraft and
     make a note of the pilots who do not meet the requirements. To ensure timely
     action, the monthly flying report should be sent to the Executive Director
     through the CAP-USAF Commander.


Conclusion
     If implemented, a one-source document would eliminate either guessing or
     estimating hours and could also eliminate several documents currently being
     used to support flying data. If one-source documents are compiled and filed at


                                         41
    the liaison office, both the CAP and the CAP-USAF financial management
    divisions would be assured that payments made on reimbursable claims are
    accurate. Further, each aircraft would have a valid flying hour record because
    the documents retained in the aircraft are also maintained at the liaison office.
    Moreover, if implemented, applicable CAP and CAP-USAF regulations,
    directives, or instructions should be revised to reflect changes in the procedures
    for approving reimbursable missions.


Recommendations, Management Comments, and Audit
  Response
    C.1. We recommend that the Executive Director, Civil Air Patrol:

           a. Obtain agreement with the Civil Air Patrol-U.S. Air Force to
    assign wing and region liaison offices as a central point for maintaining,
    reporting, tracking, and validating flying hours for each wing.

    CAP Comments. The National Commander, CAP, concurred, stating the
    Executive Director was actively seeking an agreement with CAP-USAF to
    assign that responsibility to wing and region liaison offices.

    Audit Response. The comments from the National Commander were generally
    responsive, but did not specify a time frame for completion of the action.
    Therefore, we request that the National Commander provide an estimated date.

           b. Revise Civil Air Patrol Regulation 60-1, “Civil Air Patrol Flight
    Management,” August 1, 1998, and other applicable directives and
    instructions to reflect changes in requirements and to initiate procedures
    for:

                 (1) Implementing a source document for recording and
           monitoring flying hours for each aircraft.

                  (2) Reassigning aircraft when the losing unit claims and
           reports the hours flown on an aircraft up to the last tachometer
           reading before the aircraft was reassigned and the gaining unit claim
           and report flying hours from the last tachometer reading recorded in
           the logbook before the aircraft was reassigned.

                  (3) Requiring officials of the Civil Air Patrol Operations
           Division to validate and approve the number of hours claimed for
           reimbursement before payment.

                   (4) Paying claims for reimbursement only when responsible
           officials in both the Civil Air Patrol-U.S. Air Force liaison office and
           Civil Air Patrol Operations Division approve the claims.



                                        42
CAP Comments. The National Commander, CAP, concurred with
Recommendations C.1.b.(1), C.1.b.(2), and C.1.b.(4), stating that the
Executive Director had tasked the Director of Operations to draft revisions to
Civil Air Patrol Regulation 60-1. The National Commander expected actions to
be completed by January 1, 2001. The National Commander nonconcurred with
Recommendation C.1.b.(3), stating that validation would be best performed by
Air Force oversight personnel assigned to CAP-USAF wing liaison offices and,
as such, the Executive Director was seeking agreement from CAP-USAF to
assume the responsibility.

Audit Response. Although the National Commander nonconcurred with
Recommendation C.1.b.(3), the alternative action would satisfy the intent of the
recommendation if CAP-USAF agreed to assign the responsibility to its wing
liaison office personnel. However, the National Commander did not specify the
time frame for completion of the action or an alternative if CAP-USAF does not
agree to assume the responsibility. Therefore, we request that the National
Commander provide additional comments on Recommendation C.1.b.(3) to the
final report.

C.2. We recommend that the Commander, Civil Air Patrol-U.S. Air Force:

        a. Assign Civil Air Patrol-U.S. Air Force wing and region liaison
offices responsibility to maintain records and files of source documents and
monitor actual flying hours for each aircraft if an agreement with the Civil
Air Patrol is reached.

CAP-USAF Comments. The CAP Management Improvement Team
nonconcurred in part with the recommendation and provided the following
comments. The Management Improvement Team stated that while it concurred
with the concept of the recommendation, it would prefer that the wing and
region liaison offices be the central points for the maintenance of records and
files and monitor actual flying hours for each aircraft if an agreement with CAP
was reached. The Management Improvement Team stated that the requirement
to monitor the CAP flying hour program would be included in the statement of
work for the liaison officer and noncommissioned officer personal services
contracts. However, the Management Improvement Team did not see the
liaison officers or liaison noncommissioned officers gathering the data.

Audit Response. We consider the comments from the CAP Management
Improvement Team to meet the intent of the recommendation. While the
Management Improvement Team did not specify the time frame for completion
of the action, we believe that the actions would be completed in conjunction
with other statement-of-work requirements by February 1, 2001. No further
comments are required.

      b. Revise applicable Civil Air Patrol-U.S. Air Force directives,
handbooks, instructions, and regulation to reflect changes in requirements
and procedures for:



                                   43
              (1) Monitoring and reporting to the Executive Director, Civil
       Air Patrol, pilots who do not comply with requirements.

CAP-USAF Comments. The CAP Management Improvement Team
concurred, stating that the requirements would be included in the statement of
work for the liaison officer and noncommissioned officer personal services
contracts. The Management Improvement Team expected to complete the
actions by February 1, 2001.

              (2) Approving claims for reimbursement only when both the
       Civil Air Patrol-U.S. Air Force liaison office and responsible officials
       of the Civil Air Patrol have validated the claims.

CAP-USAF Comments. The CAP Management Improvement Team
concurred, stating that the requirement would be included in applicable
CAP-USAF instructions. The Management Improvement Team expected to
complete the actions by February 1, 2001.

              (3) Verifying that the losing wing and region only claim and
       report flying hours for aircraft up to the last tachometer reading
       before the aircraft was reassigned and that the gaining wing and
       region claim and report flying hours from the last tachometer
       reading recorded in the logbook before the aircraft was reassigned.

CAP-USAF Comments. The CAP Management Improvement Team
concurred, stating that the requirement would be included in applicable
CAP-USAF instructions. The Management Improvement Team expected to
complete the actions by February 28, 2001.




                                   44
            D. Financial Management
            CAP did not have current accounting policies and procedures, did not
            process purchase requests properly, and had an internal audit staff that
            performed duties and functions that conflicted with internal auditing
            standards. Furthermore, the CAP internal audit staff had not performed
            internal audits annually since FY 1996. These conditions occurred
            because CAP did not update its policies and procedures after installing a
            new accounting system and did not enforce the policy for processing
            purchase requests and payments. In addition, the internal audit staff
            wrote accounting procedures and performed other accounting duties
            rather than performing audits of the financial operations of CAP. As a
            result, CAP may not be in compliance with Office of Management and
            Budget (OMB) Circulars and the DoD Grant and Agreement Regulations
            regarding effective control and accountability over funds; reporting on
            the efficiency and effectiveness of operations; and the reliability of
            financial reporting if the cooperative agreement between CAP and the
            Air Force is signed and becomes effective in FY 2001.


Criteria

     According to a proposed cooperative agreement between CAP and the
     Air Force, CAP will be subject to the requirements of OMB Circular
     No. A-110, “Uniform Administrative Requirements for Grants and Agreements
     With Institutions of Higher Education, Hospitals, and other Non-Profit
     Organizations,” August 29, 1997, and OMB Circular No. A-122 “Cost
     Principles for Non-Profit Organizations,” June 1, 1998. In addition, OMB
     Circular No. A-133, “Audits of States, Local Governments, and Non–Profit
     Organizations,” June 24, 1997, and DoD Regulation 3210.6-R, “DoD Grant
     and Agreement Regulations (DoDGARs),” April 13, 1998, will be applicable.
     The cooperative agreement is scheduled for signature in FY 2000 and would
     become effective in FY 2001.

     OMB Circular No. A-110. OMB Circular No. A-110 sets the standard for
     obtaining consistency and uniformity among Federal agencies for administering
     of agreements with institutions of higher learning and other nonprofit
     organizations. When OMB Circular No. A-110 becomes applicable, CAP
     would be required to establish effective controls and safeguards over all funds,
     property, and assets. In addition, OMB Circular No. A-110 requires accounting
     records to be adequately supported by source documentation.

     OMB Circular No. A-122. OMB Circular No. A-122 establishes principles for
     determining the cost of contracts, grants, and other agreements with nonprofit
     organizations. These principles are used by Federal agencies when determining
     the costs of work performed by nonprofit organizations under cooperative
     agreements. The costs must be reasonable, determined in accordance with
     generally accepted accounting principles, and be adequately documented.


                                        45
    OMB Circular No. A-133. OMB Circular No. A-133 sets audit standards for
    consistency and uniformity among Federal agencies. State, local governments,
    and non-profit organizations that receive more than $300,000 a year in Federal
    awards are required to have a single audit conducted for that year in accordance
    with OMB Circular No. A-133 requirements. In FY 2000, CAP received
    $28.3 million in appropriations from the Air Force and the Air Force budget
    submission for CAP in FY 2001 is $16.5 million. Therefore, OMB Circular
    No. A-133 will be applicable to CAP when the cooperative agreement is signed.

    DoD Grant and Agreement Regulations 3210.6-R. DoDGARs will
    implement the requirements of OMB Circular No. A-110 and OMB Circular
    No. A-122 if it becomes applicable to CAP. Specifically, DoDGARs will
    ensure effective control and accountability for funds and assets. In addition,
    DoDGARs requires written procedures for determining costs in accordance with
    the Federal cost principle.


Accounting Procedures
    CAP does not have current accounting policies and procedures. In January
    1997, CAP implemented a new accounting system called Great Plains. The
    previous accounting system (Fourgen) was a Disk Operating System program.
    Great Plains is a Windows-based system program. As a result, the accounting
    procedures needed to be updated to reflect differences in how the accounting
    department and the two systems actually process transactions such as the
    accounts payable, accounts receivable, electronic funds transfer, and payment
    notification procedures. For example, under the Fourgen system, CAP only
    made payments by check. Therefore, the wings notified vendors of payments
    by faxing copies of paid documents. However, the Great Plains system
    processes payments electronically. As a result, CAP must develop procedures
    to post transactions electronically, create and import files in the banking system,
    and establish controls that allow only authorized users to make electronic
    payments.
    Under the Fourgen system, CAP payment notification procedures to vendors
    required manual procedures. However, the Great Plains process is fully
    automated, with several differences in the payment notification process. For
    example, the Great Plains system is able to download payment information to
    the Defense Finance and Accounting Service. Specifically, it tracks payments
    made to CAP wings. It can also provide payment data to CAP wings, providing
    them with a better control mechanism for tracking payments received from the
    National Headquarters. Under the Fourgen system, payment notification was
    sent to the wings by faxing copies of paid documents. The procedures were not
    current as of July 2000. However, the CAP Accounting Department is updating
    the procedures with an August 2000 estimated completion date.

    CAP Form 4 Processing. CAP did not process purchase requests properly.
    CAP processes purchase orders on CAP Form 4, “Purchase Order/Receiving



                                        46
Report for Material or Services.” According to CAP Form 4 procedures, if a
purchase is either reimbursable or a CAMP transaction and greater than $1,000,
it requires approval by the Commander, CAP-USAF, and the Executive
Director, CAP, before goods or services are purchased. If the purchase is not
reimbursable or a CAMP transaction and greater than $1,000, the purchase only
requires approval by the Executive Director, CAP.

Prior to approval, the Comptroller or his designee must certify funds are
available to cover the cost of goods or services before the invoice date.
Subsequent to approval, the purchase order is returned to the originator to
purchase the goods or services. Furthermore, the person ordering the goods or
services must certify that the goods or services have not been ordered before
approval was obtained. Therefore, an invoice should not be dated before the
request and approval dates. The purchase order and supporting documents are
sent to the CAP Financial Management Directorate for payment.

CAP Form 4 Transactions. CAP did not enforce its policy for processing
CAP Form 4 transactions. Specifically, CAP processed payments to vendors on
CAP Form 4 with invoices for work accomplished before the required approvals
were obtained. For example, the CAP Supply Depot performed aircraft
maintenance totaling $83,000 on a CAP aircraft. Because this was not a
reimbursable transaction, it only required approval of the Executive Director,
CAP. The Executive Director, CAP, approved the purchase request in October
1999. However, each of the six invoices that accompanied the request for
payment showed the repair work was completed between January and September
1999.

CAP Corrective Actions. When brought to the attention of CAP personnel that
CAP Form 4 processing procedures were not followed, the Executive Director,
CAP, took immediate corrective action. Specifically, the Executive Director
reiterated to CAP and CAP-USAF Directors the proper procedures and stated
that in the future the Financial Management Directorate would no longer
routinely pay CAP Forms 4 that have not been properly processed. In addition,
he stated documents that circumvent the proper accounting and authorization
channels are subject to corporate ratification actions. This deficiency was
disclosed during our review of the CAMP fund sample transactions. Since CAP
took immediate action to correct the deficiency, we did not sample additional
transactions nor did we attempt to quantify the problem.

Internal Audit Performance. The CAP internal audit staff performed duties
that conflicted with internal auditing standards. For example, the internal
auditor wrote accounting policies and procedures. Specifically, the auditor
wrote accounting policies for accounts payable, accounts receivable, check
processing, and procedures for handling bad checks. The assignments
conflicted with professional standards for internal auditing.

The standards for internal auditing state that internal auditors should maintain
objectivity and be independent of activities audited. Internal auditors could
assist in development of but should not write accounting policy that they could


                                    47
    be required to evaluate. This situation would violate the standards for
    independence and objectivity. We discussed this issue with CAP and were
    advised that accounting policies and procedures will be updated and prepared by
    the Chief of Accounting.

    Internal Audit Department. The Internal Audit Department did not
    consistently perform its duties since FY 1996. The department is tasked to
    determine whether CAP is in compliance with corporate policies and
    procedures; determine whether resources are safeguarded against fraud, waste,
    loss, and misuse; and test whether the internal control systems are functioning in
    accordance with prescribed procedures. However, there have only been
    two internal audits of CAP financial operations conducted since FY 1996.
    Therefore, CAP was unable to determine if internal controls were adequate or
    being followed.

    Other Internal Audit Assignments. As of July 2000, there was only
    one auditor in the CAP Internal Audit Department. The auditor was assigned
    accounting and finance duties unrelated to her official duties as an auditor. For
    example, the auditor reconciled the investment account on a monthly basis and
    prepared journal entries for the investment accounts. Because of these and other
    duties assigned to the internal auditor, CAP did not perform audits on an annual
    basis. Furthermore, as of July 2000, there were no internal audits planned to
    review CAP financial operations in FY 2001. Internal audits of controls should
    identify any shortfalls in internal controls that may impact compliance with
    OMB Circular No. A-110, OMB Circular No. A-122, and DoDGARs.

    Financial Statement and External Audits. OMB Circular No. A-133 requires
    a single or program-specific audit be conducted annually. The audit is required
    to obtain an understanding of internal controls and perform tests of those
    internal controls. Although CAP had annual audits of its financial statements by
    an independent auditor and external audits of portions of its financial operations,
    those audits may not satisfy the requirements of the circular. The circular
    requires specific audits of internal controls and compliance requirements that
    may exceed what is normally done during a financial audit. Also, because
    accounting procedures were not current, CAP may not be able to show that
    sufficient internal controls are actually in effect, and internal control procedures
    could not be fully assessed as required. As a result, until its accounting
    procedures are updated CAP would have difficulty complying with OMB
    Circular No. A-133 when the cooperative agreement is signed.


Support Documentation
    We also reviewed CAP financial transactions to determine if adequate
    documentation existed to support payments and charges. Specifically, we
    reviewed transactions in the following areas: CAP payments, CAP receipts,
    and the CAMP fund. Generally, documentation was available to support
    payments and charges in each of the areas. We were unable to find adequate



                                         48
    support documentation (telephone bills, foreign currency transactions, and base
    billeting for training classes) in a few instances, and these were brought to CAP
    attention for corrective action.


Conclusion
    When the cooperative agreement is signed between CAP and the Air Force,
    CAP will be required to implement DoDGARs and OMB Circulars Nos. A-110,
    A-122, and A-133. CAP may not be in compliance with these requirements
    when they become applicable to CAP in FY 2001. Therefore, CAP needs to act
    to ensure that it will be in compliance with DoDGARs and the OMB Circulars.
    Specifically, CAP must ensure that it has effective control and accountability
    over funds, accurately reports on the efficiency and effectiveness of financial
    operations and reports, and that internal and external audits are performed
    consistently. Further, CAP should ensure that its policies and procedures are
    updated by the August 2000 estimated completion date and that those policies
    and procedures for determining costs are reasonable, in accordance with
    generally accepted accounting principles, and adequately documented.


Recommendations, Management Comments, and Audit
  Response
    D. We recommend that the Executive Director, Civil Air Patrol:

           1. Require the Financial Management Directorate to:

                 a. Update accounting policies and procedures prior to
           FY 2001 and ensure that adequate controls are in place.

                  b. Develop a control mechanism that will ensure purchase
           requests and payments are not processed without required approvals
           and supporting documentation.

                  c. Transfer all accounting-related duties performed by the
           internal audit staff to the accounting department.

    CAP Comments. The National Commander, CAP, concurred, stating that the
    Executive Director would take corrective actions to update accounting policies
    and procedures prior to October 1, 2000, and to ensure controls are in place.
    The National Commander also stated that the Executive Director has
    implemented a control mechanism to ensure purchase requests and payments are
    not processed without required approvals and supporting documentation. In
    addition, the National Commander stated that the Executive Director began a




                                        49
reorganization of the Financial Management Directorate which will facilitate
transfer of all accounting-related duties to the accounting staff. Actions are
planned to be completed within the first quarter of FY 2001.

       2. Require the internal auditor to prepare an annual internal audit
plan for review of the Civil Air Patrol headquarters financial operations
beginning in FY 2001.

CAP Comments. The National Commander, CAP, concurred, stating that the
Executive Director tasked the internal auditor to prepare an annual internal audit
plan for FY 2001. The National Commander expected that the plan will be
completed in October 2000 and begin execution during FY 2001.




                                    50
Appendix A. Audit Process

Scope
    We reviewed and analyzed the processes and records for FY 1997 through the
    third quarter of FY 2000 and analyzed corresponding public laws, DoD,
    Air Force, CAP regulations and manuals, Federal Aviation Administration
    airworthy directives, and manufacturer service bulletins to establish and identify
    the administration and management of the CAP corporation and DoD
    appropriated fund resources. We also reviewed CAP accounting and finance
    operations, chains of command, management authority, and aircraft
    procurement programs at the CAP-USAF and CAP headquarters. In addition,
    we reviewed safety programs, pilot licensing and certification, aircraft
    maintenance, and accident and incident reporting at 11 wings.

    Limitations of Audit Scope. In July 1999, a joint Federal task force composed
    of special agents from the Air Force Office of Special Investigations and the
    Federal Bureau of Investigation served Federal search warrants and seized all
    documents and computer media that might have contained information
    concerning CAP financial transactions from January 1989 through July 20,
    1999. In addition, other operational records concerning financial and business
    transactions, ownership of property, corporate tax returns, sales agreements,
    journals, corporate minutes, and charter records were also taken for further
    analysis for evidentiary value and potential investigative leads. Because the
    records were seized and access to the records was not granted (a gag order was
    issued by the U.S. Magistrate for the Middle District of Alabama), our review
    of the CAP Aircraft Modernization Program and financial and accounting
    functions was limited to transactions from July 22, 1999, through January 31,
    2000.

    DoD-Wide Corporate-Level Goals. In response to the Government
    Performance and Results Act, the Secretary of Defense annually establishes
    DoD-wide corporate level goals, subordinate performance goals, and
    performance measures. This report pertains to achievement of the following
    goal (and subordinate performance goal):

           Goal: Prepare now for an uncertain future by pursuing a focused
           modernization effort that maintains U.S. qualitative superiority in key
           warfighting capabilities. Transform the force by exploiting the
           Revolution in Military Affairs, and reengineer the Department to achieve
           a 21st century infrastructure. Performance Goal 2.3: Streamline the
           DoD infrastructure by redesigning the Department's support structure
           and pursuing business practice reforms. (00-DoD-2.3)




                                        51
    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal:

           Financial Management Functional Area. Objective: Strengthen
           internal controls. Goal: Improve compliance with the Federal
           Managers’ Financial Integrity Act. (FM-5.3)


Methodology
    We focused our review on the CAP financial and accounting records and
    process, aircraft procurement program, and the administrative and management
    safety program. We visited and interviewed responsible officials at the CAP
    headquarters and liaison offices, CAP-USAF headquarters and liaison offices,
    and wings to ascertain whether each of those program areas was implemented as
    intended.

    We judgmentally selected 225 of 7,969 accounts payable transactions valued at
    $5.4 million, 112 of 573 accounts receivable transactions valued at $2.4 million,
    and 177 of 483 CAP aircraft modernization program transactions valued at
    $8.5 million to determine adaptability of CAP Corporation accounting policies
    and procedures to the DoDGARs and OMB Circular Nos. A-110, A-122 and
    A-133 and compliance with current regulations. The sample represented
    61 percent of the dollar value of the universe for the period. We also reviewed
    and evaluated controls over the petty cash fund. We reviewed the aircraft
    procurement program to include the aircraft procurement budget and aircraft
    inventory and assignment records for the period of FY 1997 through the
    third quarter of FY 1999 to establish validity of new aircraft requirements. To
    ascertain adequacy and effectiveness of the CAP safety program, we
    judgmentally selected and reviewed no-notice inspection records; the Federal
    Aviation Administration pilot proficiency program; safety improvement reports;
    the mishap notification process; 595 pilot records and available related
    documents; CAP flight release logs; aircraft information files; pilot logbooks;
    and aircraft logbooks for 86 aircraft at 11 wings visited.

    Use of Computer-Processed Data. We did not use computer-based data to
    perform this audit.

    Audit Type, Dates, and Standards. We performed this program audit from
    September 1999 through May 2000 in accordance with auditing standards issued
    by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD and CAP. Further details are available on request.




                                       52
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, requires DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls. CAP, which
    is a 501(c)(3) nonprofit organization, does not fall under the DoD directive or
    OMB Circular No. A-123, “Management Accountability and Control,” June 21,
    1995, and OMB Circular No. A-127, “Financial Management Systems,”
    July 23, 1993, through Transmittal Memorandum No. 2, June 10, 1999.
    Therefore, we did not review the CAP management control program for
    compliance with DoD and OMB guidelines. However, we did review controls
    and discussed in our findings the various control weaknesses that we found.
    Although CAP-USAF does fall under the directive, we did not review its
    management control program because the May 1998 Air Force Audit Agency
    Report No. EB0098013 covered the program in detail. CAP-USAF was in the
    process of implementing that report’s recommendations to correct problems in
    its management control program.




                                      53
Appendix B. Prior Coverage

General Accounting Office
    General Accounting Office, Report No. GAO/NSAID-00-136 (OSD Case
    No. 1987), “Civil Air Patrol: Proposed Agreements With the Air Force Are
    Intended to Address Identified Problems,” June 2000.


Inspector General
    Inspector General, DoD, Report No. D-2000-075, “Administration and
    Management of the Civil Air Patrol,” February 15, 2000.


Air Force
    Air Force Inspection Agency “Review of Civil Air Patrol-USAF
    (CAP-USAF),” September 17, 1999.

    Air Force Logistics Management Agency Report No. LT199824400, “Civil Air
    Patrol (CAP) Vehicle Fleet Analysis,” September 1999.

    Air Force Logistics Management Agency Report No. LM199900600, “Civil Air
    Patrol (CAP) Aircraft Requirement Study,” April 1999.

    Air Force Audit Agency, “Installation Report of Audit, EB098013, Air Force
    Oversight of FY 1996 Civil Air Patrol Corporation Activities, CAP-USAF
    Maxwell AFB [Air Force Base] AL,” May 13, 1998.




                                     54
Appendix D. Flying Hours (by Wing and Region)

                           FY 1998 Flying Hours        FY 1999 Flying Hours
          Regions       Hours    Aircraft Average   Hours    Aircraft Average
Great Lakes Region       188        2         94     215        2        108
 Illinois               1,768      10        177    1,940      12        162
 Indiana                2,472       7        353    1,869       8        234
 Kentucky               3,097      12        258     694       11         63
 Michigan               1,747       7        250    2,112       7        302
 Ohio                    778        5        156     511        5        102
 Wisconsin              3,412      14        244    3,435      14        245
     Region Total       13,462     57        236    10,776     59        183

Middle East Region        73       1       73         25       2       13
 Delaware               1,561       4      390      1,483       7      212
 District of Columbia    792        3      264       560       2       280
 Maryland               2,371      12      198      2,578      13      198
 North Carolina         2,802       9      311      2,683       9      298
 South Carolina         1,729      11      157      2,322      11      211
 Virginia               2,146      12      179      2,436      11      221
 West Virginia           780       7       111      1,064      8       133
  Region Total          12,254     59      208      13,151     63      209

North Central Region      0         0        0        0         0        0
 Iowa                    872       9        97      1,193      9       133
 Kansas                  786        6      131       760       6       127
 Minnesota              3,832      19      202      3,628      17      213
 Missouri                998       8       125       544       7        78
 Nebraska                965        6      161       985       5       197
 North Dakota           1,279      7       183      1,208      6       201
 South Dakota            962       5       192       662       5       132
   Region Total         9,694      60      162      8,980      55      163




                                    58
Appendix D. Flying Hours (by Wing and
            Region) (Continued)

                           FY 1998 Flying Hours        FY 1999 Flying Hours
        Regions         Hours    Aircraft Average   Hours    Aircraft Average
Northeast Region          139       4         35      181       3        60
 Connecticut              782       6        130      742       5        148
 Maine                  1,840       9        204    1,878       8        235
 Massachusetts          1,434      10        143    2,127       8        266
 New Hampshire            655       6        109      307       5        61
 New Jersey              1,237      6        206     1,406      6        234
 New York                3,221     18        179     1,523     17         90
 Pennsylvania            4,542     25        182    5,662      25        226
 Rhode Island             456       3        152      497       3        166
 Vermont                  359       3        120      284       3         95
   Region Total         14,665     90        163    14,607     83        176

Pacific Coast Region      0        0        0         0        0        0
 Alaska                 3,389     33       103      3,358      31      108
 California             4,134     28       148      6,321      24      263
 Hawaii                 3,487     11       317      1,935      10      194
 Nevada                 2,228      8       279      2,103       8      263
 Oregon                 1,808     11       164      1,586      13      122
 Washington             2,213      9       246      2,527      9       281
  Region Total          17,259    100      173      17,830     95      188

Rocky Mountain Region     0        0        0         0        0        0
 Colorado               2,842      15      189      2,848      14      203
 Idaho                  1,326       7      189      1,272       7      182
 Montana                 581       4       145       468       4       117
 Utah                   2,118      9       235      2,133      9       237
 Wyoming                 534       4       134       561       4       140
   Region Total         7,401      39      190      7,282      38      192




                                    59
Appendix D. Flying Hours (by Wing and
            Region) (Continued)

                           FY 1998 Flying Hours        FY 1999 Flying Hours
         Regions        Hours    Aircraft Average   Hours    Aircraft Average
Southeast Region          0         0         0       22        1         22
 Alabama                4,881      20        244    4,918      22        224
 Florida                4,528      21        216    5,239      20        262
 Georgia                2,708      14        193    2,972      15        198
 Mississippi            1,477       7        211    1,103       8        138
 Puerto Rico             435        3        145     779        3        260
 Tennessee              1,351       9        150    1,658       9        184
  Region Total          15,380     74        208    16,691     78        214

Southwest Region          58       1        58        0        0        0
 Arizona                3,599     17       212      3,088      21      147
 Arkansas               2,790      9       310      2,534       9      282
 Louisiana              2,059     15       137      2,260      12      188
 New Mexico             4,100     17       241      2,353      20      118
 Oklahoma               1,616      8       202      1,197       7      171
 Texas                  10,414    34       306      7,725      29      266
  Region Total          24,636    101      244      19,157     98      195

    Wings and
     Regions Total      114,751   580      198      108,474   569      191

National Headquarters    248       5        50       549       5       110

     Total              114,999   585      197      109,023   574      190




                                    60
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director, Defense Logistics Studies Information Exchange

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Inspector General, Department of the Air Force
Auditor General, Department of the Air Force
Commander, Air University
   Commander, Civil Air Patrol-U.S. Air Force
National Commander, Civil Air Patrol
   Executive Director, Civil Air Patrol

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center




                                          61
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       62
Department of the Air Force Comments




                     63
64
Civil Air Patrol Comments




                     65
66
67
68
69
70
71
72
73
74
75
76
77
Audit Team Members

This report was prepared by the Readiness and Logistics Support Directorate, Office of
the Assistant Inspector General for Auditing, DoD. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

Shelton R. Young
Raymond D. Kidd
Harlan M. Geyer
Richard A. Brown
Julius L. Hoffman
Consolacion L. Loflin
Suk Y. Webb
Gary L. Queen
Oscar SanMateo
Juana R. Smith
Vanessa Springfield
Wilfredo Romero
Anita M. Manuel
